APPENDICES

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 20-55106
CALIFORNIA TRUCKING ASSOCIATION;
et al.,
Plaintiffs-Appellees,
v.
ROBERT ANDRES BONTA, Esquire, in his
official capacity as the Attorney General of the State
of California; et al.,
Defendants-Appellants,
and
INTERNATIONAL BROTHERHOOD OF
TEAMSTERS,
Intervenor-Defendant
D.C. No. 3:18-cv-02458-BEN-BLM
Southern District of California, San Diego
Appeal from the United States District Court
for the Southern District of California
Roger T. Benitez, District Judge, Presiding
Argued and Submitted September 1, 2020
Pasadena, California
Filed April 28, 2021
Before: Sandra S. Ikuta and Mark J. Bennett, Circuit
Judges, and Douglas P. Woodlock, District Judge.
Opinion by Judge Ikuta;
Dissent by Judge Bennett

2a
OPINION
IKUTA, Circuit Judge:
The Federal Aviation Administration Authorization Act of 1994 (F4A or FAAAA) preempts any state
law “related to a price, route, or service of any motor
carrier ... with respect to the transportation of property.” 49 U.S.C. § 14501(c)(1). California’s Assembly
Bill 5 (AB-5) codified a judge-made test (referred to as
the “ABC test”) for classifying workers as either employees or independent contractors. This appeal raises
the question whether application of AB-5 to motor carriers is preempted by the F4A. Because AB-5 is a generally applicable labor law that affects a motor carrier’s relationship with its workforce and does not
bind, compel, or otherwise freeze into place the prices,
routes, or services of motor carriers, we conclude that
it is not preempted by the F4A. See, e.g., Dilts v.
Penske Logistics, LLC, 769 F.3d 637, 647 (9th Cir.
2014).
I
We first provide the context for this challenge. Before 2018, the California Supreme Court’s framework
for classifying workers as either employees or independent contractors was set forth in S.G. Borello
Sons, Inc. v. Department of Industrial Relations, 48
Cal. 3d 341 (1989). Borello set out indicia of an employer-employee relationship as opposed to an independent-contractor relationship. Id. at 350-51. The indicia included “the right to control work,” “the right to
discharge at will, without cause,” and, most important

3a
here, “whether or not the work is a part of the regular
business of the principal.” Id.1
Almost thirty years after Borello, the California
Supreme Court revisited the framework for classifying workers as employees or independent contractors
for purposes of California’s Industrial Welfare Commission (IWC) Wage Orders.2 See Dynamex Operations W. v. Superior Ct., 4 Cal. 5th 903, 912, 957
(2018). Dynamex adopted a standard commonly referred to as the “ABC” test. Id. at 957. Under Prong B
of that test, a worker is presumed to be an employee
and may be classified as an independent contractor
only if “the worker performs work that is outside the

1

The other indicia are:
(a) whether the one performing services is engaged in a distinct occupation or business; (b) the kind of occupation, with
reference to whether, in the locality, the work is usually done
under the direction of the principal or by a specialist without
supervision; (c) the skill required in the particular occupation;
(d) whether the principal or the worker supplies the instrumentalities, tools, and the place of work for the person doing
the work; (e) the length of time for which the services are to
be performed; (f) the method of payment, whether by the time
or by the job; …. and (h) whether or not the parties believe
they are creating the relationship of employer-employee.

Borello, 48 Cal. 3d at 351.
2 As explained in Dynamex, California’s IWC Wage Orders “are
constitutionally-authorized, quasi-legislative regulations that
have the force of law” and “impose obligations relating to minimum wages, maximum hours, and a limited number of very basic
working conditions (such as minimally required meal and rest
breaks) of California employees.” Dynamex Operations W. v. Superior Ct., 4 Cal. 5th 903, 913-14 & n.3 (2018).

4a
usual course of the hiring entity’s business.” Id.3 The
ABC test was thus significantly different from the Borello test: while Borello considered “whether or not the
work is a part of the regular business of the principal”
as only one factor in the classification analysis, 48 Cal.
3d at 351, the ABC test presumed a worker was an
employee unless the worker met that condition, Dynamex, 4 Cal. 5th at 957.
In September 2019, the California legislature enacted AB-5, which codified the ABC test and expanded
its applicability. See Cal. Lab. Code § 2775.4 The statutory text of AB-5 classifies certain workers as employees, stating that a person “shall be considered an
employee rather than an independent contractor unless the hiring entity demonstrates that all of the following conditions are satisfied”:
(A) The person is free from the control and direction of the hiring entity in connection with
the performance of the work, both under the
3 In full, the ABC test as enunciated by Dynamex provides that
workers are presumed to be employees unless each of the following conditions is met:

(A) that the worker is free from the control and direction of
the hiring entity in connection with the performance of the
work ... ; and (B) that the worker performs work that is outside the usual course of the hiring entity’s business; and (C)
that the worker is customarily engaged in an independently
established trade, occupation, or business of the same nature
as the work performed [for the hiring entity].
Id. at 957.
AB-5 was originally codified at section 2750.3 of the California
Labor Code. Section 2750.3 was repealed effective September 4,
2020, and the ABC test is currently codified at section 2775 of
the California Labor Code. Cal. Lab. Code § 2775(b)(1)(A)—(C).

4

5a
contract for the performance of the work and
in fact. (B) The person performs work that is
outside the usual course of the hiring entity’s
business. (C) The person is customarily engaged in an independently established trade,
occupation, or business of the same nature as
that involved in the work performed.
Id. § 2775(b)(1)(A)—(C).
AB-5 exempts certain occupations and services.
Id. § 2778. It also contains a number of exemptions,
including a “business-to-business” exception, which
exempts any “business service provider” that meets
several requirements. Id. § 2776(a).5 If an exemption
from AB-5 applies, then the Borello test controls the
classification of workers as employees or independent
contractors. Id. §§ 2775(b)(3), 2776(a), 2778(a).
California Trucking Association (CTA) is a trade
association representing motor carriers that hire independent contractors who own their own trucks (referred to as “independent owner-operators”) to
transport property throughout California. The change
from the Borello test to Dynamex and then to AB-5
concerned CTA. It viewed the new rule statutorily
classifying a worker as an employee unless the hiring
In September 2020, the California legislature revised some of
AB-5’s exemptions and created additional exemptions. See Assembly Bill 2257 (AB-2257); Cal. Lab. Code §§ 2775-2787. California voters added further exemptions by adopting Proposition
22 in November 2020. Proposition 22 provides that app-based
drivers (drivers who provide delivery and transportation services
in personal vehicles through a business’s online application or
platform) are independent contractors if certain conditions are
met. See Cal. Bus. & Prof. Code § 7451 (codifying Proposition 22).
Neither AB-2257 nor Proposition 22 changed the portion of AB5 that set forth the ABC test itself.
5

6a
entity demonstrates that the worker performs “work
that is outside the usual course of the hiring entity’s
business,” id. § 2775(b)(1)(B), as effectively precluding
the business model employed by CTA’s members. Cf.
Scott L. Cummings & Emma Curran Donnelly Hulse,
Preemption As A Tool of Misclassification, 66 UCLA
L. Rev. 1872, 1880 (2019).
A
In October 2018, after Dynamex was decided,
CTA, along with Ravinder Singh and Thomas Odom,
two independent owner-operators (the plaintiffs), filed
this lawsuit against Xavier Becerra, the Attorney
General of California; Julie Su, Secretary of the California Labor Workforce; and several other California
officials (collectively referred to as “California” or “the
state”), seeking a declaration that the F4A preempted
the ABC test as applied to motor carriers. The district
court allowed the International Brotherhood of Teamsters (IBT), a labor union that represents owner-operators classified as employees, to intervene. Dist Ct.
Dkt. No. 31. In February 2019, IBT and California
filed motions to dismiss. Dist. Ct. Dkt. No. 28, 29.
On September 24, 2019, about a week after the
California legislature enacted AB-5, the district court
dismissed CTA’s amended complaint with leave to
amend, explaining that it was unclear whether the state
would enforce Dynamex now that AB-5 had been enacted.
On November 12, 2019, the plaintiffs filed the now-operative Second Amended Complaint, raising their challenge
that the F4A preempts AB-5, and moved to enjoin its enforcement.

The district court held that CTA had standing and
was likely to succeed on the merits of its claim. It
therefore enjoined the state from enforcing AB-5

7a
against any motor carrier doing business in California. The state and IBT timely appealed.
B
The district court had jurisdiction under 28 U.S.C.
§ 1331. We have jurisdiction under 28 U.S.C.
§ 1292(a)(1). We review de novo whether CTA has
standing. Taylor v. Westly, 488 F.3d 1197, 1199 (9th
Cir. 2007). We review for an abuse of discretion the
district court’s grant of a preliminary injunction. Am.
Trucking Ass’ns, Inc. v. City of Los Angeles, 559 F.3d
1046, 1052 (9th Cir. 2009). “A preliminary injunction
is an extraordinary remedy never awarded as of
right.” Winter v. Nat. Res. Def Council, Inc., 555 U.S.
7, 24 (2008). “A plaintiff seeking a preliminary injunction must establish that he is likely to succeed on the
merits, that he is likely to suffer irreparable harm in
the absence of preliminary relief, that the balance of
equities tips in his favor, and that an injunction is in
the public interest.” Id. at 20.6 A district court abuses
its discretion when it “base[s] its decision on an erroneous legal standard.” Puente Arizona v. Arpaio, 821 F.3d
1098, 1103 (9th Cir. 2016) (citation omitted). Thus, the
district court’s “legal conclusions, such as whether a
statute is preempted, are reviewed de novo.” Id.
II
Before reaching the merits, we must determine
whether any plaintiff has standing to bring this preIn our circuit, “serious questions going to the merits,” as well as
“a balance of hardships that tips sharply towards the plaintiff
can support issuance of a preliminary injunction, so long as the
plaintiff also shows that there is a likelihood of irreparable injury
and that the injunction is in the public interest.” All. for the Wild
Rockies v. Cottrell, 632 F.3d 1127, 1135 (9th Cir. 2011) (citation
omitted).

6

8a
enforcement challenge. We focus on the associational
standing of CTA.7 To have standing, CTA must allege
“a case or controversy within the meaning of Art. III
of the Constitution,” and not just “abstract questions
not currently justiciable by a federal court.” Babbitt v.
United Farm Workers Nat’l Union, 442 U.S. 289, 297
(1979). There needs to be “a realistic danger of sustaining a direct injury as a result of the statute’s operation or enforcement.” Id. at 298. We have listed
three factors for evaluating “the genuineness of a
claimed threat of prosecution”: “[1] whether the plaintiffs have articulated a ‘concrete plan’ to violate the
law in question, [2] whether the prosecuting authorities have communicated a specific warning or threat
to initiate proceedings, and [3] the history of past
prosecution or enforcement under the challenged statute.” Thomas v. Anchorage Equal Rights Comm’n, 220
F.3d 1134, 1139 (9th Cir. 2000). “At this very preliminary stage, plaintiffs may rely on the allegations in
their Complaint and whatever other evidence they
submitted in support of their preliminary-injunction
motion to meet their burden” of demonstrating Article
III standing. City & County of San Francisco v. U.S.
Citizenship Immigr. Servs., 944 F.3d 773, 787 (9th
Cir. 2019) (cleaned up).
An association has standing if “(1) its individual members
would have standing in their own right, (2) the interests at stake
in the litigation are germane to the organization’s purposes, and
(3) the case may be litigated without participation by individual
members of the association.” Airline Serv. Providers Ass’n v. L.A.
World Airports, 873 F.3d 1074,1078 (9th Cir. 2017). So long as
standing can be shown for one plaintiff, we need not consider the
standing of the other plaintiffs. See Watt v. Energy Action Educ.
Found., 454 U.S. 151,160 (1981). We note that the parties dispute only whether CTA’s members would have standing in their
own right.
7

9a
Applying these factors, we conclude that CTA has
standing to bring this complaint. Based on the allegations in its complaint, CTA and its members have
“demonstrated that their policies are presently in conflict with” the challenged provision, City & County of
San Francisco v. Trump, 897 F.3d 1225, 1237 (9th Cir.
2018), and they have a concrete plan to violate AB-5.
The complaint alleges that CTA and its members currently contract with independent owner-operators, rather than employees. CTA alleges that this is permissible under the Borello test but not under AB-5. The
complaint further alleges that AB-5 requires CTA to
terminate its independent-contractor arrangements
and instead hire only employees, which (according to
CTA) would require “an immediate and significant
change in the plaintiffs’ conduct of their affairs.” Abbott Lab’ys v. Gardner, 387 U.S. 136, 153 (1967).
CTA’s members are continuing with their current
business practices, and thus CTA alleges that if not
for the district court’s injunction, its members would
be in violation of AB-5. Because CTA’s members are
maintaining policies that “are presently in conflict
with” AB-5, according to the allegations in the complaint, they are deemed to have articulated a concrete
plan to violate it. See Trump, 897 F.3d at 1237.
Second, CTA has established that there is a threat
to initiate proceedings against its members. Here, the
state’s refusal to disavow enforcement of AB-5 against
motor carriers during this litigation is strong evidence
that the state intends to enforce the law and that
CTA’s members face a credible threat. See LSO, Ltd.
v. Stroh, 205 F.3d 1146, 1154-56 (9th Cir. 2000) (holding that “the Government’s failure to disavow application of the challenged provision [is] a factor in favor of
a finding of standing”). Plaintiffs are also deemed to

10a
have established that there is a realistic threat to initiate proceedings against them if the government has
declared its “intention to enforce” the new law. Pierce
v. Soc’y of the Sisters of the Holy Names of Jesus &
Mary, 268 U.S. 510, 533 (1925). In this case, the state
has notified the regulated community that it intends
to enforce AB-5. On December 13, 2019, several weeks
before AB-5 took effect, the state sent letters to businesses notifying them that, under AB-5, the ABC test
“must be used to determine the appropriate classification of workers in most occupations.” And after AB-5
took effect, California began “moving aggressively to
enforce” it. Carolyn Siad, AB5 Gig Law Enforced: California Sues Uber and Lyft to Make Drivers Employees, San Francisco Chronicle (May 5, 2020). The state
has commenced a number of prosecutions against
companies for misclassifying workers under AB-5.
See, e.g., Complaint, People v. Uber Techs., Inc., No.
CGC-20-584402 (Cal. Super. May 5, 2020).
As to the history of enforcement, this factor has
“little weight” when the challenged law is “relatively
new and the record contains little information as to
enforcement or interpretation.” Wolfson v. Brammer,
616 F.3d 1045, 1060 (9th Cir. 2010). CTA filed its operative complaint several weeks before AB-5’s effective date, and thus it was not possible for the state to
have enforced AB-5 before that date. See Sacks v. Off. of
Foreign Assets Control, 466 F.3d 764, 774 (9th Cir. 2006)
(explaining that standing is determined “as of the date
the complaint was filed”). Nonetheless, in September
2019, before AB-5 became effective and before CTA filed
its operative complaint, the state sued Instacart and
sought civil penalties based on allegations that Instacart
misclassified its workers under Dynamex. See Complaint, State v. Maplebear Inc. et al., No. 37-201900048731-CU-MC-CTL (Cal. Super. Ct. Sept. 13, 2019).

11a
Given that AB-5 codified Dynamex’s ruling regarding
the ABC test, this “history of past enforcement against
parties similarly situated to the plaintiffs cuts in favor
of a conclusion that a threat is specific and credible.”
Lopez v. Candaele, 630 F.3d 775, 786-87 (9th Cir. 2010).

Because our three-factor test, as applied to the enactment of a new law, establishes that the plaintiffs
face “a realistic danger of sustaining a direct injury as
a result of the statute’s operation or enforcement,”
Babbitt, 442 U.S. at 298, we hold that CTA and its
members have standing to bring this complaint.
III
We next consider whether the district court
abused its discretion by enjoining the state from enforcing AB-5 against motor carriers doing business in
California on the ground that such enforcement is
preempted by the F4A.
A
The Supremacy Clause of the United States Constitution provides that federal law “shall be the supreme Law of the Land; and the Judges in every State
shall be bound thereby, any Thing in the Constitution
or Laws of any State to the Contrary notwithstanding.” U.S. Const. art. VI, cl. 2. Thus, if a state law “conflicts with, or frustrates, federal law, the former must
give way.” CSX Transp., Inc. v. Easterwood, 507 U.S.
658, 663 (1993). When a federal statute like the F4A
contains an express preemption clause, “the task of
statutory construction must in the first instance focus
on the plain wording of the clause, which necessarily
contains the best evidence of Congress’ pre-emptive
intent.” Id. at 664. In focusing on congressional intent,
we take into account “the presumption that Congress
does not intend to supplant state law, particularly in

12a
areas of traditional state regulation.” Miller v. C.H.
Robinson Worldwide, Inc., 976 F.3d 1016, 1021 (9th
Cir. 2020) (cleaned up). “We therefore presume that
Congress has not preempted the historic police powers
of the States unless that was the clear and manifest
purpose of Congress.” Id. (cleaned up).
We begin with the plain language of the statute.
The F4A expressly preempts any state law “related to
a price, route, or service of any motor carrier … with
respect to the transportation of property.” 49 U.S.C.
§ 14501(c)(1). In interpreting these words, and thus
determining the F4A’s preemptive scope, we are
bound by a long line of precedent that requires us,
among other things, to consider “Congress’ deregulatory and pre-emption-related objectives” in enacting
the F4A. Rowe v. N.H. Motor Transp. Ass’n, 552 U.S.
364, 371 (2008). Therefore, we begin by providing the
relevant historical and interpretive background.
Before 1978, the trucking and airline industries
were extensively regulated. See Morales v. Trans
World Airlines, Inc., 504 U.S. 374, 378 (1992). In 1978,
Congress concluded that “maximum reliance on competitive market forces” would favor lower airline fares
and better airline service, and it enacted the Airline
Deregulation Act (ADA). Id. (citation omitted). To preclude states from eliminating the benefits of increased
competition by imposing their own regulations on the
airlines, the ADA included a preemption provision
“prohibiting States from enacting or enforcing any law
related to rates, routes, or services of any air carrier.”
Dan’s City Used Cars, Inc. v. Pelkey, 569 U.S. 251, 256
(2013) (citation omitted).
Congress then focused its deregulatory efforts on
the trucking industry. It engaged in a two-step process. First, Congress enacted the Motor Carrier Act of

13a
1980 (MCA), which extended federal deregulation to
the trucking industry but “explicitly preserved state
authority to regulate intrastate trucking.” Jill E.
Fisch, How Do Corporations Play Politics?: The Fedex
Story, 58 Vand. L. Rev. 1495, 1528-29 (2005). For this
reason, state economic regulation of trucking continued to be a “huge problem for national and regional
carriers attempting to conduct a standard way of doing business.” City of Columbus v. Ours Garage
Wrecker Serv., Inc., 536 U.S. 424, 440 (1994) (citation
omitted). For instance, although the ADA preempted
state regulation of FedEx’s trucking operations because FedEx was organized as an air carrier, Fed.
Exp. Corp. v. Cal. Pub. Utilities Comm’n, 936 F.2d
1075, 1078-79 (9th Cir. 1991), many of FedEx’s competitors, which were organized as motor carriers, did
not receive similar protection from state regulation.
In 1994, Congress enacted the F4A, which
preempted state authority to regulate intrastate
trucking and created a level playing field so that all
companies using motor carriers and air carriers received the same protections, regardless of how they
were organized. See H.R. Conf. Rep. No. 103-677, at 87
(1994). Adopting language from the ADA’s preemption
clause, the F4A states: “[A] State…. may not enact or
enforce a law… related to a price, route, or service of any
motor carrier… with respect to the transportation of
property.” 49 U.S.C. § 14501(c)(1); see also id.
§ 41713(b)(4)(A) (similar provision for combined motor/air carriers).
Because the F4A uses “text nearly identical” to the
ADA’s, we have held that analysis of the ADA’s
preemption clause “is instructive for our FAAAA analysis as well.” Dilts, 769 F.3d at 644. There is one difference between the preemption provisions of the ADA

14a
and the F4A, however: the latter “contains one conspicuous alteration the addition of the words ‘with respect to the transportation of property,’” a phrase that
“massively limits the scope of preemption ordered by
the FAAAA” compared to the ADA. Dan’s City, 569
U.S. at 261 (cleaned up).8 In sum, the state law at issue is preempted to the extent it relates to the price,
route, or service of a motor carrier in its operations
involving the transportation of property.
B
The interpretation of the words “related to a price,
route, or service of any motor carrier” likewise has a
long history. The Supreme Court first interpreted
similar language in the ADA’s express preemption
provision in Morales v. Trans World Airlines. Morales
held that the ADA preempts states from enforcing
guidelines related to how airlines may advertise fares.
504 U.S. at 391. Morales reached this conclusion because the guidelines established “binding requirements as to how tickets may be marketed.” Id. at 388.
In interpreting “related to,” which is the “key phrase”
in the preemption provision, Morales stated that “the
ordinary meaning of these words is a broad one—‘to
stand in some relation; to have bearing or concern; to
pertain; refer; to bring into association with or connection with’—and the words thus express a broad preemptive purpose.” Id. at 383 (quoting Black’s Law Dictionary 1158 (5th ed. 1979)). For this reason, Morales
The Supreme Court has suggested that this additional limiting
language means that the F4A preempts “only laws, regulations,
and other provisions that single out for special treatment motor
carriers of property.” Ours Garage, 536 U.S. at 449 (Scalia, J.,
dissenting) (cleaned up); see also Dan’s City, 569 U.S. at 261 & n.
4 (agreeing with the Ours Garage dissent’s characterization of
the F4A).

8

15a
rejected the argument that “only state laws specifically addressed to the airline industry are preempted, whereas the ADA imposes no constraints on
laws of general applicability.” Id. at 386. According to
the Court, such a construction would create “an utterly irrational loophole” and “ignores the sweep of the
‘relating to’ language.” Id. Nevertheless, Morales
acknowledged that “state actions may affect airline
fares in too tenuous, remote, or peripheral a manner
to have pre-emptive effect.” Id. at 390 (cleaned up).
In subsequent cases, the Supreme Court refined
its interpretation of “related to.” As the Court has explained, “the breadth of the words ‘related to’ does not
mean the sky is the limit.” Dan’s City, 569 U.S. at 260.
A court cannot take an uncritically literal reading of
“related to,” otherwise “for all practical purposes preemption would never run its course.” Id. Perhaps the
author of Morales said it best: “applying the ‘relate to’
provision according to its terms was a project doomed
to failure, since, as many a curbstone philosopher has
observed, everything is related to everything else.”
Cal. Div. of Lab. Standards Enf’t v. Dillingham
Const., NA., Inc., 519 U.S. 316, 335 (1997) (Scalia, J.,
concurring). Further, the “related to” language “provides an illusory test, unless the Court is willing to
decree a degree of pre-emption that no sensible person
could have intended—which it is not.” Id. at 335-36.
In this vein, the Supreme Court’s decisions about F4A
preemption after Morales have tended to construe the
F4A narrowly, holding, for instance, that a state law
is “related to” prices, routes, and services if it “aim[s]
directly at the carriage of goods” and requires motor
carriers “to offer a system of services that the market
does not now provide,” or “freeze[s] into place services
that carriers might prefer to discontinue in the future.” Rowe, 552 U.S. at 372, 376.

16a
In light of this guidance, we have attempted to
“draw a line between laws that are significantly related to rates, routes, or services, even indirectly, and
thus are preempted, and those that have only a tenuous, remote, or peripheral connection to rates, routes,
or services, and thus are not preempted.” Dilts, 769
F.3d at 643 (citation omitted). A law’s general applicability, while not dispositive, “will likely influence
whether the effect on prices, routes, and services is
tenuous or significant.” Cal. Trucking Ass’n v. Su, 903
F.3d 953, 966 (9th Cir. 2018), cert. denied, 139 S. Ct.
1331 (2019). “What matters is not solely that the law
is generally applicable, but where in the chain of a motor carrier’s business it is acting to compel a certain
result… and what result it is compelling.” Id.
When a generally applicable law compels a motor
carrier to a certain result in its relationship with consumers, such as requiring a motor carrier “to offer a
system of services that the market does not provide”
or that “would freeze into place services that carriers
might prefer to discontinue in the future,” and “that
the market would not otherwise provide,” the law’s effect is more likely to be significantly related to rates,
routes or services. Dilts, 769 F.3d at 645-46 (citation
omitted). Such a law may be preempted because it “directly or indirectly, binds the carrier to a particular
price, route or service and thereby interferes with the
competitive market forces within the industry.” Id. at
646 (citation omitted). Similarly, a state’s common
law rule may be preempted if it “otherwise regulate[s]” prices, routes, and services by impacting the
motor carrier’s relationship with its customers. Miller, 976 F.3d at 1025 (emphasis omitted) (citing Dilts,
769 F.3d at 647). For instance, a negligence claim that
seeks to hold a broker (or motor carrier) liable at the
point at which it provides a service to its customers is

17a
directly (and significantly) related to rates, routes or
services, and thus preempted. Id. at 1024.
By contrast, laws of general applicability that affect a motor carrier’s relationship with its workforce,
and compel a certain wage or preclude discrimination
in hiring or firing decisions, are not significantly related to rates, routes or services. See Su, 903 F.3d at
966. Therefore, enforcement of California’s prevailing
wage law against motor carriers, the application of
California’s meal and rest break laws, and “the use of
California’s common-law test for determining
whether a motor carrier has properly classified its
drivers as independent contractors” are not
preempted, because they impact motor carriers’ business at the point where the motor carriers interact
with their workers. Miller, 976 F.3d at 1023.
A generally applicable law is one that affects individuals “solely in their capacity as members of the
general public,” Rowe, 552 U.S. at 375, and applies “to
hundreds of different industries,” Dilts, 769 F.3d at
647 (citation omitted). When such generally applicable laws impact motor carriers’ relationship with their
workforce, they are not “related to a price, route or
service” “even if they raise the overall cost of doing
business,” or “shift[] incentives and make[] it more
costly for motor carriers to choose some routes or services relative to others, leading the carriers to reallocate resources or make different business decisions.”
Dilts, 769 F.3d at 646-47 (emphasis omitted); see also
Ridgeway v. Walmart Inc., 946 F.3d 1066, 1083 (9th
Cir. 2020) (holding that a law was not preempted,
even if employers had to factor the law “into their decisions about the prices they set, the routes that they
use, or the services that they provide, because the law
did not “set prices, mandate or prohibit certain routes,

18a
or tell motor carriers what services that they may or
may not provide, either directly or indirectly” (cleaned
up)).
In Dilts we applied these principles and determined that California’s meal and rest break laws, as
applied to motor carriers, are not preempted by the
F4A. See 769 F.3d at 640. The state laws at issue,
which required “a 30-minute meal break for every five
hours worked, and a paid 10-minute rest break for
every four hours worked,” might have increased the
costs of doing business, because they might have required motor carriers to hire more drivers, change
their current schedules, and make “minor deviations”
from their routes. Id. at 640, 649 (citations omitted).
But because these generally applicable labor laws did
not bind motor carriers to specific rates or services,
meaningfully interfere with the ability of motor carriers to set routes, or compel a certain result at the level
of the motor carriers’ consumers rather than their
workforce, we determined that the laws were not “related to” prices, routes or services, and thus were not
preempted by the F4A. Id. at 640; see also Ridgeway,
946 F.3d at 1083-86 (holding that the F4A does not
preempt a California minimum-wage law that would
require Walmart to pay long-haul-truck-drivers minimum wages for layovers in California).
Four years after Dilts, we concluded that the F4A
does not preempt the Borello test for classifying California workers as either employees or independent
contractors. See Su, 903 F.3d at 957. We rejected the
plaintiff’s contentions that application of the Borello
standard to its workforce bound or compelled it to certain prices, routes, or services. Id. at 964-65. Rather,
consistent with Dilts and Californians for Safe Competitive Dump Truck Transportation v. Mendonca, 152

19a
F.3d 1184 (9th Cir. 1998), we held that “[a]t most, carriers will face modest increases in business costs, or
will have to take the Borello standard and its impact
on labor laws into account when arranging operations.” Id. at 965. The Borello test was not preempted
by the F4A, we held, because it was “a generally applicable background regulation in an area of traditional state power” that merely affected the relationship “between a carrier and its workforce,” where “the
impact is on the protections afforded to that workforce.” Id. at 961-62. In reaching this conclusion, we
rejected the plaintiff’s contentions that the Borello
standard improperly compelled motor carriers to use
employees, but we did not decide whether such compulsion would cause a law to be preempted by the
F4A. Id. at 959 n.4.
Based on Dilts, Su, and related precedent, a generally applicable state law is not “related to a price,
route, or service of any motor carrier” for purposes of
the F4A unless the state law “binds the carrier to a
particular price, route or service” or otherwise freezes
them into place or determines them to a significant
degree. Dilts, 769 F.3d at 646. We have generally held
that the state law at issue does not have such a binding or freezing effect unless it compels a result at the
level of the motor carrier’s relationship with its customers or consumers. See id. at 640, 646; Su, 903 F.3d
at 966. Such a law does not have a binding or freezing
effect, and thus is not preempted, merely because a
motor carrier must take the law into account when
making business decisions, or merely because the law
increases a motor carrier’s operating costs. See Dilts,
769 F.3d at 646-47.

20a
IV
We now turn to the question whether the F4A
preempts the ABC test, as codified in AB-5 and applied to motor carriers. This requires us to determine
whether AB-5 is “significantly related to rates, routes,
or services ... and thus [is] preempted,” or whether it
has “only a tenuous, remote, or peripheral connection
to rates, routes, or services” and therefore is not
preempted. Id. at 643 (cleaned up).
A
We first consider whether AB-5 is generally applicable, because this determination “will likely influence whether the effect on prices, routes, and services
is tenuous or significant.” Su, 903 F.3d at 966. Under
our precedent, AB-5 is a generally applicable law because it applies to employers generally; it does not single out motor carriers but instead affects them solely
in their capacity as employers. Cf. Rowe, 552 U.S. at
375. Even if some businesses are exempt from AB-5,
it certainly applies “to hundreds of different industries.”9 Dilts, 769 F.3d at 647.
We next consider where in the chain of a motor
carrier’s business AB-5 is acting to compel a certain
result, and the result it is compelling. Su, 903 F.3d at
966. AB-5 affects the way motor carriers must classify
their workers, and therefore compels a particular result at the level of a motor carrier’s relationship with
its workforce. It does not compel a result in a motor
CTA claims that AB-5 is not generally applicable because it includes a number of exemptions. We disagree. Labor laws typically include exemptions. For instance, the meal-and-rest-break
requirements were deemed to be generally applicable in Dilts,
even though they do not apply to certain categories of workers.
See Cal. Lab. Code § 512(b)(2)—(f).

9

21a
carrier’s relationship with consumers, such as freezing into place a particular price, route or service that
a carrier would otherwise not provide. See Dilts, 769
F.3d at 646-47. Indeed, CTA does not argue that AB5 does so. Therefore, it does not have the sort of binding or freezing effect on prices, routes, or services that
are preempted under the F4A.
Because AB-5 is a generally applicable law that
impacts a motor carrier’s business at the point where
the motor carrier interacts with its workers, and the
law affects motor carriers’ relationship with their
workers in a manner analogous to the worker classification laws we have previously upheld in Su, AB-5 is
not significantly related to rates, routes, or services.
Therefore, we conclude that the F4A does not preempt
AB-5 as applied to motor carriers.
B
CTA raises two main arguments in support of its
claim that the F4A preempts AB-5.
The first is that AB-5’s impact is so significant
that it indirectly determines price, routes, or services.
According to CTA, the ABC test requires that motor
carriers use employees rather than independent contractors as drivers.10 Given the impact such a requirement has on its members’ business models, CTA contends, AB-5 necessarily has a significant effect on
prices, routes, and services. In detailing the impact of
AB-5 on prices, routes, and services, CTA begins by
10 IBT disputes this claim, and argues that AB-5’s business-tobusiness exemption “permits motor carriers to contract with
truly independent owner-operators without necessarily creating
an employment relationship.” For purposes of determining
whether the F4A preempts AB-5, however, we need not address
this issue.

22a
alleging that AB-5 will increase its members’ costs “by
as much as 150% or more.” According to CTA, motor
carriers will have to buy a “fleet of trucks” and maintain and repair those trucks, provide for meal and rest
breaks, train employees, set up staff, and provide
worker’s-compensation insurance. As a result, CTA
alleges, its members would pass these increased costs
off to customers as increased prices.11
Moreover, CTA contends that its members would
have to “reconfigure and consolidate routes” to offset
increased costs. Its members might eliminate certain
routes all together and might have to reconfigure
routes to ensure their drivers can take meal and rest
breaks. All of this would make the routes of CTA’s
members less efficient.
And finally, CTA contends that the increased labor costs caused by AB-5 would likely put small motor
carriers out of business and force other motor carriers
to leave California. The remaining motor carriers
would therefore offer “diminished services.”
We have routinely rejected similar arguments
that the F4A preempts California labor laws that impose such indirect effects. See, e.g., Dilts, 769 F.3d at
646 (holding that California’s meal-and-rest-break
laws “are not preempted even if they raise the overall
cost of doing business or require a carrier to re-direct
or reroute some equipment”).
11 Although CTA’s allegations of increased costs rely heavily on
its claim that motor carriers will be forced to buy a fleet of trucks,
CTA conceded that its members could avoid incurring such costs
by hiring owner-operators (i.e., drivers who own their own
trucks) as employees. Given the undeveloped record in the district court, CTA’s allegations with respect to prices, routes, and
services are merely speculative.

23a
In Mendonca, for example, the plaintiffs argued
before the district court that California’s prevailing
wage law would increase motor carriers’ costs by 75%,
and this increase in costs would increase prices by
25% because wages constituted 33% of the eventual
price charged by motor carriers. Californians For Safe
& Competitive Dump Truck Transp. v. Mendonca, 957
F. Supp. 1121, 1127 & n. 11 (N.D. Cal. 1997). This
price increase would, the plaintiffs alleged, require
the motor carriers to use independent owner-operators and compel them “to redirect and reroute equipment to compensate for the additional costs imposed
on them by the Prevailing Wage Law,” and it would
“interfere[] with their California segment of operations, which in turn [would disrupt] their interstate
services.” Id. Despite the motor carriers’ dire predictions
about increased costs leading to changes in routes and
services, we concluded that California’s prevailing
wage law was not the sort of law that Congress intended to preempt. Mendonca, 152 F.3d at 1189. As
the district court explained, “if preemption was based
on percentages of price, then numerous areas of state
regulation would be preempted based solely on their
percentage effect on motor carrier prices,” contrary to
“the Supreme Court’s requirement of ‘clear and manifest’ Congressional intent to preempt.” Mendonca, 957
F. Supp. at 1127 n.11. We affirmed the district court,
holding that the law’s effect “is no more than indirect,
remote, and tenuous” and did not fall “into the ‘field of
laws’ regulating prices, routes, or services.” Mendonca, 152 F.3d at 1189; see also Ridgeway, 946 F.3d
at 1083.
Our decision in California Trucking Association v.
Su supports this conclusion. In that case, the plaintiff
argued that the Borello worker-classification test
would impact its prices, routes, and services. 903 F.3d

24a
at 958. But we held that the test would at most impose
“modest increases in business costs” or require motor
carriers “to take the Borello standard and its impact
on labor laws into account when arranging operations.” Id. at 965. Because the state worker-classification law would not “have an impermissible effect, such
as binding motor carriers to specific services, making
the continued provision of particular services essential to compliance with the law, or interfering at the
point that a carrier provides services to its customers,”
the law was not preempted. Id. The same analysis applies to the impact of AB-5 here.
The dissent argues that we have given insufficient
weight to the effect that AB-5 may have on a motor
carrier’s prices, routes and services. Dissent at 49-50.
According to the dissent, even a generally applicable
law that impacts a motor carrier’s relationship with
its workforce may have such a significant impact on
prices, routes and services that it is preempted by the
F4A. See generally Dissent. While our precedents do
not rule out the possibility that a generally applicable
law could so significantly impact the employment relationship between motor carriers and their employees that it effectively binds motor carriers to specific
prices, routes, or services at the consumer level, the
dissent has not identified any case where we have
done so. Rather, as noted above, our precedents have
consistently considered and rejected predicted effects
similar to those raised by CTA. We see no basis for
departing from our precedent holding that a law increasing motor carriers’ employee costs, but not interfering at the point where the motor carrier provides a
service to its customers, does not simply fall “into the
field of laws” that Congress intended to preempt. Mendonca, 152 F.3d at 1189 (cleaned up).

25a
C
Second, CTA and the dissent argue that because
the ABC test requires an employer to hire employees,
rather than independent contractors, language in
American Trucking Associations v. City of Los Angeles
and Su compels us to conclude that AB-5 is related to
the prices, routes, and service of a motor carrier.
Again, we disagree.
American Trucking Associations involved a challenge to city ordinances requiring that trucks providing drayage services to the Port of Los Angeles and
the Port of Long Beach enter into mandatory concession agreements. See generally 559 F.3d at 1046. The
Ports acknowledged that the principal purpose of the
concession agreements was to reduce truck emissions
and address other environmental concerns. Id. at
1055. A provision in the Port of Los Angeles’s concession agreement required motor carriers operating at
the Port of Los Angeles to “transition over the course
of five years from independent-contractor drivers to
employees.” Id. at 1049. The district court held that
the plaintiff demonstrated a likelihood of success in
showing that the agreements were preempted by the
F4A, because the agreements “directly regulate[d] the
carriers themselves” and might have “force[d] motor
carriers to change their prices, routes, or services in a
way that the market would not otherwise dictate.”
Am. Trucking Ass’ns, Inc. v. City of Los Angeles, 577
F. Supp. 2d 1110, 1117 (C.D. Cal. 2008), rev’d, 559
F.3d at 1046. According to the district court, defendants did “not seem to dispute this,” but rather argued
that the concession agreements were exempted from
preemption because, among other things, the F4A’s
safety exemption likely applied. See id.; see also 49
U.S.C. § 14501(a)(2) (providing that the F4A’s

26a
preemption provision “shall not restrict the safety regulatory authority of a State with respect to motor vehicles”). The district court agreed with this rationale
and refused to enjoin the implementation of the concession agreements, because there was a significant
probability that the concession agreements fell under
the safety exception to the F4A. Am. Trucking Ass’ns,
577 F. Supp. 2d at 1125.
On appeal, we likewise focused on the F4A’s safety
exemption. Although we agreed that it “can hardly be
doubted” that the concession agreements “relate[d] to
prices, routes or services of motor carriers,” we noted
that the defendants did not “actually dispute that on
appeal.” Am. Trucking Ass’ns, 559 F.3d at 1053; see
also id. at 1051 (noting that the district court’s ruling
that the plaintiff could likely demonstrate that the
concession agreements “related to a price, route, or
service” of motor carriers was “a ruling left unchallenged” on appeal). We reversed the district court on
the ground that the concession agreements were
aimed at environmental and economic concerns, not
safety concerns, and so the concession agreements did
not qualify for the safety exemption from preemption.
Id. at 1056, 1060-61. We remanded so that the district
court could determine whether, absent the safety exemption, the “specific terms of each agreement” were
likely to be preempted. Id.
CTA focuses on our passing statement that it “can
hardly be doubted” that the concession agreements
“relate to prices, routes or services of motor carriers.”
Id. at 1053. According to CTA, this language compels
us to hold that AB-5 is preempted. This argument
fails. We did not have occasion in American Trucking
Associations to address the question whether or how

27a
the concession agreements related to the motor carrier’s prices, routes, or services, because that issue
was not on appeal. Moreover, any determination that
the concession agreements did “relate to prices, routes
or services of motor carriers” would not be controlling
here, because American Trucking Associations did not
involve a generally applicable law, but rather a targeted agreement that “directly regulate[d] the carriers themselves.” Am. Trucking Ass’ns, 577 F. Supp. 2d
at 1117. As we have since explained, “Congress did not
intend to preempt generally applicable state transportation, safety, welfare, or business rules that do not
otherwise regulate prices, routes, or services.” Dilts,
769 F.3d at 644. Accordingly, our dicta in American
Trucking Associations, which was “made casually and
without analysis, uttered in passing without due consideration of the alternatives, [and] done as a prelude
to another legal issue that command[ed] the panel’s full
attention,” United States v. McAdory, 935 F.3d 838, 843
(9th Cir. 2019) (cleaned up), does not control our analysis
here.

CTA also argues that our discussion of American
Trucking Associations in Su compels the conclusion
that a state law that requires a motor carrier to employ only independent contractors must be deemed to
relate to the prices, routes, and services or motor carriers for purposes of F4A preemption. For several reasons, we do not read Su as going that far.
CTA relies on a portion of Su discussing the plaintiff’s claim that the Borello test imposed an “improper
compulsion” of the sort preempted by the F4A, because it compelled the use of independent contractors.
903 F.3d at 964. Su rejected that argument. Rather
than determine whether such compulsion is
preempted by the F4A, however, Su instead concluded

28a
that the Borello test “does not, by its terms, compel a
carrier to use an employee or an independent contractor.” Id. Distinguishing American Trucking Associations, we stated that the case “stands for the obvious
proposition that an ‘all or nothing’ rule requiring services be performed by certain types of employee drivers and motivated by a State’s own efficiency and environmental goals was likely preempted.” Id.
Despite our passing characterization of American
Trucking Associations, we recognized that the question whether the F4A preempted a labor law like the
ABC test was not before us, and we expressly left that
question open: after recognizing that Dynamex had
adopted the ABC test while the appeal in Su was
pending, we clarified that “we need not and do not decide whether the FAAAA would preempt using the
‘ABC’ test to enforce labor protections under California law.” Id. at 964 n.4, 964 n.9. Because Su “did not
make a deliberate decision to adopt” a rule regarding
the ABC test—and indeed expressly disclaimed doing
so—we are neither bound nor meaningfully assisted
for analytical purposes by its statements made without reasoned consideration. Seven Up Pete Venture v.
Schweitzer, 523 F.3d 948, 953 (9th Cir. 2008). Given
that the issue was not on appeal, it is not surprising
that Su provided no reasoning as to why a state law
requiring the use of employees would necessarily be
“related to” the prices, routes, or services of motor carriers. Indeed, Su itself acknowledged that “Congress
did not intend to hinder States from imposing normative policies on motor carriers as employers.” Id. at
963. Rather, Su’s statement was solely based on its
erroneous characterization of American Trucking Associations as deciding that the F4A likely preempted
an “all or nothing” rule requiring employee drivers. As
explained above, however, this issue was not even on

29a
appeal in that case. We are therefore not constrained
or materially instructed by Su’s passing discussion of
the ABC test. Schweitzer, 523 F.3d at 953.
Finally, the dissent argues that Miller supports
CTA’s position. Dissent at 44. We disagree. Miller
held that a common-law negligence cause of action,
not a generally applicable labor law, was preempted
by the F4A. See 976 F.3d at 1023-24. In reaching this
conclusion, Miller reaffirmed that the F4A does not
prohibit California from enforcing normal background
rules applying to employers doing business in California, which are not “related to” carrier prices, routes,
or services. Id. Rather, Miller held that common law
negligence was distinguishable from laws governing
employment relations, because negligence claims
sought to hold a company “liable at the point at which
it provides a ‘service’ to its customers,” which is “directly connected with” services “in a manner that was
lacking in Mendonca, Dilts, and Su.” Id. at 1024
(cleaned up). Here, of course, AB-5 is a generally applicable statutory labor law that affects motor carriers’ business at the level of the carriers’ workforce, not
their consumers. Thus, Mendonca, Dilts, and Su control, and Miller does not.12
D
We likewise reject the arguments made by CTA
and the dissent based on Schwann v. FedEx Ground
Package Sys., Inc., 813 F.3d 429,437-40 (1st Cir. 2016)
12 The dissent claims that AB-5 is “like the common law of negligence at issue in Miller and unlike the employment regulations
at issue in Mendonca, Dilts, and Su.” Dissent at 44. Because AB5 is a generally applicable law governing employment, closely
analogous to the worker-classification test in Su, and does not
impose liability for negligence, we are puzzled by this argument.

30a
and Bedoya v. Am. Eagle Express Inc., 914 F.3d
812,816 (3d Cir. 2019), cert. denied, 140 S. Ct. 102
(2019). The language relied upon is contrary to our
precedent.
In Schwann, the First Circuit determined that
Prong 2 of Massachusetts’ ABC test (which is identical
to Prong B of the California ABC test codified in AB5) sufficiently relates to a motor carrier’s services and
routes, because interfering with the employer’s decision whether to use an employee or an independent
contractor could prevent a motor carrier from using its
preferred methods of providing delivery services, raise
the motor carrier’s costs, and impact routes. Schwann,
813 F.3d at 438-39; see also Bedoya, 914 F.3d at 82425 (opining in dicta that the F4A preempts Massachusetts’ ABC test because it “mandate[s] a particular
course of action—e.g., requiring carriers to use employees rather than independent contractors”). But we
have previously concluded that such indirect consequences have “only a tenuous, remote, or peripheral
connection to rates, routes or services.” Dilts, 769 F.3d
at 643 (cleaned up).13
In light of our case law, we also reject CTA’s argument that the legislative history of the F4A supports
13 CTA also relies on two state-court opinions holding that Prong
B of the ABC test is preempted by the F4A. See People ex rel.
Harris v. Pac Anchor Transp., Inc., 59 Cal. 4th 772, 783 (2014);
People v. Cal Cartage Transp. Express, LLC, 2020 WL 497132, at
*1 (Cal. Super. Ct. Jan. 8, 2020), vacated by People v. Superior
Ct. of L.A. Cnty., 271 Cal. Rptr. 3d 570, 582 (Ct. App. 2020). But
we are bound by our precedent, not contrary state-court rulings.
Moreover, two California Courts of Appeal recently held that the
F4A does not preempt AB-5 as applied to motor carriers. See Superior Ct. of L.A. Cnty, 271 Cal. Rptr. 3d at 582; Parada v. E.
Coast Transp. Inc., No. B296566, 2021 WL 1222007 (Cal. Ct.
App. Mar. 26, 2021).

31a
holding that the F4A preempts AB-5. In Su, we found
“nothing in the FAAAA’s legislative history indicat[ing] that Congress intended to preempt the traditional power to protect employees or the necessary
precursor to that power, i.e., identifying who is protected.” 903 F.3d at 967. This further supported our
conclusion that “Congress did not intend to foreclose
States from applying common law tests to discern who
is entitled to generally applicable labor protections.”
Id. CTA argues that a passage in a 1994 House report
makes clear that Congress intended for the F4A to
preempt state laws that discriminated against motor
carriers whose business model was based on hiring
owner-operators. H.R. Conf. Rep. No. 103-677, at 87
(1994). We disagree. The House report states that
“[t]he need for [preemption] has arisen from this
patchwork of regulation and in a June 25, 1991 9th
Circuit Court of Appeals decision….” Id. The Ninth
Circuit opinion at issue had held that the ADA
preempted state regulation of FedEx, which was organized as an air carrier, even though it did not preempt
state regulation of companies engaged in similar operations that were organized as motor carriers. Fed.
Exp. Corp., 936 F.2d at 1078-79. While one of Congress’s purposes may have been to level the playing
field for motor carriers like FedEx’ s competitors, the
House report does not indicate any intent to allow motor carriers full discretion in how they classified their
workforce.14
14 The dissent claims that our holding “undermines the balance
of state and federal power contemplated by the F4A.” Dissent at
53. The dissent gets it backward. We begin with the presumption
that Congress did not intend to preempt a law that is within a
state’s historical police powers, unless that “was the clear and
manifest purpose of Congress.” Miller, 976 F.3d at 1021. It is the

32a
Because AB-5 is a generally applicable labor law
that impacts the relationship between a motor carrier
and its workforce, and does not bind, compel, or otherwise freeze into place a particular price, route, or
service of a motor carrier at the level of its customers,
it is not preempted by the F4A. Because CTA is unlikely to succeed on the merits, the district court erred
by enjoining the state from enforcing AB-5 against
motor carriers operating in California. Winter, 555
U.S. at 20. By failing to follow our precedent regarding
labor laws of general applicability, the district court
committed a legal error to which we cannot defer, even
at the preliminary-injunction stage. See Arpaio, 821
F.3d at 1103.15
REVERSED.

dissent that would tip the balance of power against the states
and in favor of the federal government by holding that federal
law preempts AB-5, a state law clearly within an area of traditional state power, without citing any evidence that Congress
clearly and expressly intended to do so. The dissent relies on
Rowe to support its claim that Congress intended to preempt
laws like AB-5, but this reliance is misplaced. In Rowe, the regulation at issue required, among other things, that a driver delivering tobacco products verify the identity and age of the recipient of the package, and obtain the recipient’s signature. 552 U.S.
at 369. Such a law is clearly the sort of “service-determining law”
that Congress intended to preempt. See id. at 373. By contrast,
AB-5 does not mandate that motor carriers provide or withhold
any service.
15 Because the F4A does not preempt AB-5 as applied to motor
carriers, we do not address the remaining preliminary-injunction
factors.

33a
BENNETT, Circuit Judge, dissenting:
I agree with the majority that for purposes of F4A
preemption, we “draw a line between laws that are
significantly related to rates, routes, or services, even
indirectly, and thus are preempted, and those that
have only a tenuous, remote, or peripheral connection
to rates, routes, or services, and thus are not
preempted.” Majority Opinion at 22 (quoting Dilts v.
Penske Logistics, LLC, 769 F.3d 637, 643 (9th Cir.
2014)). I also agree that “laws of general applicability
that affect a motor carrier’s relationship with its
workforce… are not significantly related to rates,
routes or services,” Majority Opinion at 23—if those
laws significantly affect only a motor carrier’s relationship with its workforce. I do not agree, however,
that a law like AB-5—which affects motor carriers’ relationships with their workers and significantly impacts the services motor carriers are able to provide to
their customers is not related to motor carriers’ services and thus is not preempted.1 Therefore, I respectfully dissent.
We review the grant of a preliminary injunction
for abuse of discretion. Am. Trucking Ass’ns, Inc. v.
City of L.A., 559 F.3d 1046, 1052 (9th Cir. 2009). “Our
review is limited and deferential, and we do not review the underlying merits of the case.” Id. (quotation
marks, citation, and alteration omitted). There are
four factors we must consider: (1) the likelihood of success on the merits, (2) the likelihood of irreparable
harm, (3) the balance of equities, and (4) the public
interest. Short v. Brown, 893 F.3d 671, 675 (9th Cir.
I agree with the majority that amendments to AB-5 and the
passage of Proposition 22 do not affect our analysis. Majority
Opinion at 11 n.5.

1

34a
2018). The majority reverses the district court under
the first prong, concluding that CTA is “unlikely to
succeed” in proving that AB-5 is preempted. Majority
Opinion at 39.
“[T]he [F4A’s] central objective is to avoid frustrating the statute’s deregulatory purpose by preventing states from imposing a patchwork of state servicedetermining laws.” Bedoya v. Am. Eagle Express Inc.,
914 F.3d 812, 818 (3d Cir. 2019) (quotation marks and
citation omitted). Thus, the F4A preempts any state
law that is “related to” a motor carrier’s prices, routes,
or services. 49 U.S.C. § 14501(c)(1). While the Supreme Court has instructed that “the breadth of the
words ‘related to’ does not mean the sky is the limit,”
Dan’s City Used Cars, Inc. v. Pelkey, 569 U.S. 251, 260
(2013), it has also made clear that the words “express
a broad preemptive purpose,” Morales v. Trans World
Airlines, Inc., 504 U.S. 374, 383 (1992). Accordingly,
the Supreme Court held in Morales that a state law is
not “related” for preemption purposes if its impact is
“too tenuous, remote, or peripheral.” Id. at 390 (citation omitted). But Morales also made clear that “preemption occurs at least where state laws have a ‘significant impact’”—specifically on prices, routes, or services in the context of the F4A. Rowe v. New Hampshire Motor Transp. Ass’n, 552 U.S. 364, 371 (2008)
(emphasis added) (quoting Morales, 504 U.S. at 390).
This rule applies both to laws that target motor carriers and to laws of general applicability. See Morales,
504 U.S. at 386. Consistent with Supreme Court precedent, then, the straightforward question we should
have answered today is whether AB-5’s impact on
CTA members’ prices, routes, or services is significant
or instead merely tenuous, remote, or peripheral.

35a
Applying this critical distinction, our court has repeatedly held that state employment laws with a significant impact on motor carriers’ relationships to
their workforces, but only a tenuous, remote, and peripheral effect on their prices, routes, and services, are
not preempted by the F4A. In Californians for Safe
and Competitive Dump Truck Transportation v. Mendonca, 152 F.3d 1184 (9th Cir. 1998), we considered
California’s Prevailing Wage Law that required contractors who were awarded public works contracts to
pay their workers “not less than the general prevailing rate.” Id. at 1186. The motor carriers argued that
the law was “related to” prices, routes, and services
because, among other things, it forced them to increase prices and redirect and reroute equipment to
compensate for lost revenue. Id. at 1189. We held that
the law was not “related to” the carriers’ prices,
routes, or services because it did not “acutely interfer[e]” with them. Id.
In Dilts, we considered California labor laws requiring
“a 30-minute meal break for every five hours worked, and
a paid 10-minute rest break for every four hours

worked.” 769 F.3d at 640 (citation omitted). We held
that the laws were not preempted because they “[did]
not bind motor carriers to specific prices, routes, or
services,” would cause “nothing more than a modestly
increased cost of doing business” and “minor deviations” in drivers’ routes, and would not “meaningfully
decrease the availability of routes to motor carriers.”
Id. at 647-49 (emphasis added) (quotation marks and
citation omitted). In accord with Morales, we reaffirmed that “state laws like California’s, which do not
directly regulate prices, routes, or services, are not
preempted by the [F4A] unless they have a ‘significant
effect’ on prices, routes, or services.” Id. at 649-50.
Thus, because “there [was] no showing of an actual or

36a
likely significant effect on prices, routes, or services,”
we concluded that “the California laws at issue [were]
not preempted.” Id. at 650.
Finally, in California Trucking Association v. Su,
903 F.3d 953 (9th Cir. 2018), we considered the Borello test, which used to be California’s common law
test for determining whether someone was an employee or independent contractor. Id. at 957. The Borello test was essentially a totality of the circumstances balancing analysis: there were eight to ten
factors, and no factor was dispositive. See S.G. Borello
Sons, Inc. v. Dep’t of Indus. Rels., 769 P.2d 399,407
(Cal. 1989). We held that the Borello test was not
preempted by the F4A because “[a]t most, carriers
[would] face modest increases in business costs, or
[would] have to take the Borello standard and its impact on labor laws into account when arranging operations.” Su, 903 F.3d at 965 (emphasis added). Such
impacts were “not significant, and so [did] not warrant
preemption.” Id. at 964.
Out of these cases, the majority crafts the general
rule that “laws of general applicability that affect a
motor carrier’s relationship with its workforce… are
not significantly related to rates, routes or services.”
Majority Opinion at 23. But the majority’s rule ignores the possibility that a state law might affect a
motor carrier’s relationship with its workforce and
have a significant impact on that motor carrier’s
prices, routes, or services, which would mandate F4A
preemption under Supreme Court precedent. See
Rowe, 552 U.S. at 371 (“[P]re-emption occurs at least
where state laws have a significant impact [on prices,
routes, or services].” (emphasis added) (quotation
marks and citation omitted)).

37a
Our prior F4A preemption decisions did not overlook this point. In Mendonca, we stated that “state
regulation in an area of traditional state power having
no more than an indirect, remote, or tenuous effect on
a motor carrier[‘ prices, routes, and services [is] not
preempted” not that any regulation in an area of traditional state power, such as employment, is not
preempted. 152 F.3d at 1188 (emphasis added). In
Dilts, we similarly stated that in enacting the F4A,
“Congress did not intend to preempt generally applicable state transportation, safety, welfare, or business
rules that do not otherwise regulate prices, routes, or
services.” 769 F.3d at 644 (emphasis added). And in
Su, we stated that “Congress did not intend to
preempt laws that implement California’s traditional
labor protection powers, and which affect carriers’
rates, routes, or services in only tenuous ways.” 903
F.3d at 961 (emphasis added). We clarified that
“[w]hat matters is ... where in the chain of a motor
carrier’s business it is acting to compel a certain result
… and what result it is compelling.” Id. at 966. We
thus held that the Borello test was not preempted precisely “because the Borello standard [did] not compel
the use of employees or independent contractors; instead, at most, it impact[ed motor carriers] in ways
that…. [were] not significant.” Id. at 964.
Despite that holding, the majority mischaracterizes dicta in Miller v. C.H. Robinson Worldwide, Inc.,
976 F.3d 1016 (9th Cir. 2020), as reaffirming that “the
F4A does not prohibit California from enforcing normal background rules applying to employers doing
business in California.” Majority Opinion at 35. But
Miller did not embrace such a categorical rule, which
would have been at odds with Morales. Instead, Miller
reaffirmed that “[t]he phrase ‘related to’ in the [F4A]

38a
embraces state laws having a connection with or reference to… rates, routes, or services, whether directly
or indirectly.” 976 F.3d at 1022 (ellipsis in original)
(quotation marks and citation omitted). Miller then
held that when a generally applicable state law “seeks
to hold [a motor carrier] liable at the point at which it
provides a ‘service’ to its customers,” the state law is
“directly connected with” a motor carrier’s service
(and thus preempted) “in a manner that was lacking
in Mendonca, Dilts, and Su.” Id. at 1024 (quotation
marks, citation, and alteration omitted).
AB-5 seeks to interfere with motor carriers’ operations at the point at which they provide a service to
their customers, like the common law of negligence at
issue in Miller and unlike the employment regulations
at issue in Mendonca, Dilts, and Su. Whereas the
wage law in Mendonca did not require motor carriers
to raise their prices, the meal and rest break laws in
Dilts caused only “modestly increased cost[s]” and “minor deviations” in routes, and the Borello test “[did]
not compel the use of employees or independent contractors,” AB-5 mandates the very means by which
CTA members must provide transportation services to
their customers. It requires them to use employees rather than independent contractors as drivers, thereby
significantly impacting CTA members’ relationships
with their workers and the services that CTA members are able to provide to their customers.
AB-5’s ABC test includes three factors. If the employer fails to establish all three, then the worker
“shall be considered an employee rather than an independent contractor.” Cal. Lab. Code § 2750.3(a)(1)
(emphasis added). The factor at issue is B: whether
the worker “performs work that is outside the usual
course of the hiring entity’s business.” Id.

39a
§ 2750.3(a)(1)(B). The district court found that under
B, “drivers who may own and operate their own rigs
will never be considered independent contractors under California law.”2 Cal. Trucking Ass’n v. Becerra,
433 F. Supp. 3d 1154, 1165 (S.D. Cal. 2020). And this
is self-evident: independent-contractor truckers hauling goods for the hiring entity are perforce not performing work outside the usual course of the hiring
entity’s business, which is, of course, hauling goods.
Thus, as the district court correctly found, motor carriers would have to “reclassify all independent-contractor drivers as employee-drivers for all purposes
under the California Labor Code, the Industrial Welfare Commission [(IWC)] wage orders, and the Unemployment Insurance Code.” Id. at 1166.
The appellants do not present any arguments to
the contrary. In fact, the district court “repeatedly invited [the state] to explain how the ABC test was not
an ‘all or nothing test’ specifically “how a motor carrier
could contract with an independent owner-operator as
an independent contractor, rather than as an employee”—and neither the State Defendants nor Intervenor-Appellant International Brotherhood of Teamsters did so. Id. at 1165 n.9. These same parties were
just as stumped when asked the same question during
oral argument. Though they insisted that we were
asking the wrong question, they did not dispute that

2 As discussed below, this court made the same point in even
stronger terms in Su: “[T]he ‘ABC’ test may effectively compel a
motor carrier to use employees for certain services because, under the ‘ABC’ test, a worker providing a service within an employer’s usual course of business will never be considered an independent contractor.” 903 F.3d at 964 (emphasis added).

40a
the ABC test would automatically characterize as employees all those with whom CTA members contracted
to haul goods.
In the absence of any dispute that AB-5 will “categorically prevent[] motor carriers from exercising
their freedom to choose between using independent
contractors or employees,” id. at 1165, the obvious
conclusion is that AB-5 will significantly impact motor carriers’ services by mandating the means by
which they are provided. At the very least, the district
court did not abuse its discretion in so concluding, especially given that the differences between transportation services provided by independent contractor
drivers and those provided by employee drivers are
neither superficial nor “peripheral.” Schwann v.
FedEx Ground Package Sys., Inc., 813 F.3d 429, 438
(1st Cir. 2016). Whether to provide a service directly
through employees or indirectly through independent
contractors “is a significant decision in designing and
running a business.… [T]hat decision implicates the
way in which a company chooses to allocate its resources and incentivize those persons providing the
service.” Id.
First, the record demonstrates that in addition to
altering motor carriers’ relationships to their workers,
AB-5 will significantly impact motor carriers’ services
to their customers by diminishing the specialized
transportation services that motor carriers are able to
provide through independent contractor drivers. As
the declaration of Greg Stefflre, an officer of one of
CTA’s members, explains in great detail:
Many individual owner-operators have invested in specialized equipment and have obtained the skills to operate that equipment efficiently. Some of these owner-operators have

41a
unique and expensive equipment not available in the fleet of other trucking companies.
Therefore, an owner-operator fleet by definition consists of a variety of specialists who can
bring on their specialized equipment as
needed and, when the need abates, the owneroperator can move to another motor carrier
where the equipment is needed. In contrast,
employee fleets cannot keep infrequently
used, specialized equipment on hand because
of the capital costs associated with acquiring
this equipment. As a result, employee-based
motor carriers will be unable to offer services
requiring such equipment services currently
available through owner-operator based motor carriers.
Dist. Ct. Dkt. No. 54-2 at 8. This lack of specialization
will deprive motor carriers’ consumers of particular
services—consumers who depend on motor carriers to
hire independent contractors to transport unwieldy,
hazardous, or otherwise unusual goods that could not
be transported with typical trucks and equipment.
Second, the record also demonstrates that by requiring motor carriers to hire employee drivers, AB-5
will eliminate motor carriers’ flexibility to accommodate fluctuations in supply and demand, given that
California’s IWC Wage Order No. 4-2001(9)(B) requires employers to supply their employees’ tools and
equipment. Stefflre’s declaration also elaborates on
this predictable outcome:
The use of owner-operators permits expansion
in times of plenty and contraction during
shortages in business. Employee driver fleets
cannot expand and contract as easily and certainly not as inexpensively as independent

42a
contractor fleets. To use employee drivers, one
needs to acquire trucks. Even if leased, such
leases require fixed terms when establishing
price so the size of the fleet cannot be lowered
without incurring penalties. In owned fleets,
the unused tractors become a completely nonproductive asset and a drain on profitability.
Owner-operator fleets can relatively easily expand and contract. When existing business
goes to a competitor, the owner-operators
working with the incumbent simply move to
the successful bidder eliminating the drain
that would occur with an employee fleet.
Dist. Ct. Dkt. No. 54-2 at 7-8. Thus, as further explained by the declaration of Shawn Yadon, the CEO
of CTA, hiring only employee drivers will limit motor
carriers to “obtaining just enough equipment and employee drivers to meet the typical demand,” so that
they “[can]not provide additional resources to provide
truck services during times of peak demand.” Dist. Ct.
Dkt. No. 54-3 at 6. Again, this inability to meet temporary rises in demand will deprive motor carriers’
consumers of particular services—consumers such as
farmers and retail sellers who depend on motor carriers to seasonally hire independent contractors during
harvests and peak retail seasons, respectively. Dist.
Ct. Dkt. No. 54-3 at 6; Dist. Ct. Dkt. No. 54-5, Ex. B at
12.
The majority mischaracterizes my argument as
suggesting “that AB-5’s impact is so significant that it
indirectly determines… services,” Majority Opinion at
28 (emphasis added), an argument that the majority
then brushes aside because “[w]e have routinely rejected similar arguments that the F4A preempts California labor laws that impose such indirect effects,”

43a
Majority Opinion at 29. However, rather than suggesting that AB-5 determines services, I argue that
AB-5 determines the means of providing said services,
thereby significantly impacting them—which is
enough to trigger F4A preemption. Cf. Miller, 976
F.3d at 1024-25 (“We have occasionally suggested that
preemption occurs only when a state law [binds motor
carriers to specific prices, routes, or services].… But
even these cases acknowledged that the scope of [F4A]
preemption is broader than this language suggests.”).
Furthermore, although “[w]e have routinely rejected”
arguments that the F4A preempts California labor
laws that indirectly affect prices, routes, or services—
by raising wages, requiring brief meal and rest
breaks, or causing motor carriers to take “into account” state standards for labeling workers as independent contractors—these arguments are not “similar” to my argument that an “all or nothing” rule mandating the very means by which a motor carrier can
provide its services is preempted. My argument is
more akin to the Supreme Court’s holding in Rowe,
that a state law has a significant impact on services
not only when it determines said services, but also
when it regulates “the essential details of a motor carrier’s system for picking up, sorting, and carrying
goods essential details of the carriage itself” Rowe, 552
U.S. at 373.
The majority concedes that “our precedents do not
rule out the possibility that a generally applicable law
could so significantly impact the employment relationship between motor carriers and their employees
that it effectively binds motor carriers to specific
prices, routes, or services at the consumer level.” Majority Opinion at 31. In fact, this court has twice endorsed my position that “all or nothing” rules requir-

44a
ing the use of employee rather than independent contractor drivers are preempted by the F4A. In American Trucking Associations v. City of Los Angeles, 559
F.3d 1046 (9th Cir. 2009), we considered a city-imposed concession agreement requiring that motor carriers transition from using independent contractors to
employees in order to operate at the Port of Los Angeles. Id. at 1049. We made clear at the outset: “That the
Concession agreements relate to prices, routes or services of motor carriers can hardly be doubted. Thus,
we fully agree with the district court that it is likely
that ATA will establish that proposition.” Id. at 1053
(emphasis added). The district court had concluded
that preemption was likely because the “concession
agreements [would possibly] force motor carriers to
change their prices, routes, or services in a way that
the market would not otherwise dictate.” Am. Trucking Ass’ns, Inc. v. City of L.A., 577 F. Supp. 2d 1110,
1117 (C.D. Cal. 2008).
In Su, we considered the ABC test at issue here,
as a counterpoint to Borello’s totality of the circumstances test. We began by characterizing American
Trucking Associations as “stand[ing] for the obvious
proposition that an ‘all or nothing’ rule requiring services be performed by certain types of employee drivers… was likely preempted.” 903 F.3d at 964. We then
explained: “Like American Trucking, the ‘ABC’ test may
effectively compel a motor carrier to use employees for
certain services because, under the ‘ABC’ test, a worker
providing a service within an employer’s usual course of
business will never be considered an independent contractor.” Id.
Two other circuits have also held or signaled that
all or nothing rules like California’s ABC test are or
should be preempted. In Schwann, the First Circuit

45a
held that the F4A preempts Prong 2 of Massachusetts’s 1-2-3 test.3 See 813 F.3d at 442. The First Circuit recognized the obvious reality that “Prong 2
would significantly affect how [motor carriers] provide[] good and efficient service” by “mandat[ing] that
[motor carriers] classify… individual contractors as
employees,” thereby “significant[ly] impact[ing] ... the
actual routes followed for the pick-up and delivery of
packages.” Id. at 439 (emphasis added). The court
held that such “regulatory interference” would not be
“peripheral.” Id. at 438. Rather, “[s]uch an application
of state law [would] pose[] a serious potential impediment to the achievement of the [F4A’s] objectives because a court, rather than the market participant,
would ultimately determine what services that company provides and how it chooses to provide them.” Id.
In Bedoya, the Third Circuit upheld New Jersey’s
ABC test against an F4A preemption defense. 914
F.3d at 824. New Jersey’s test is identical to California’s and Massachusetts’s tests with one key difference: the New Jersey test does not “categorically prevent[] carriers from using independent contractors”
because its Prong B includes an “alternative method
for reaching independent contractor status . .. by
demonstrating that the worker provides services outside of the putative employer’s places of business.” Id.;
see id. at 816-17. The Third Circuit thus held that New
Jersey’s ABC test was not preempted because it “[did]
not have a significant effect on prices, routes, or services,” “[did] not bind [motor carriers] to a particular
method of providing services,” and “[did] not mandate
a particular course of action”—“unlike the preempted
The only difference between the 1-2-3 test and the ABC test is
the name—all three prongs are identical. Compare Mass. Gen.
Laws ch. 149, § 148B(a), with Cal. Lab. Code § 2750.3(a)(1).

3

46a
Massachusetts law at issue in Schwann.” Id. at 824-25
(emphasis added).
The majority brushes all of these cases aside: “We
did not have occasion in American Trucking Associations to address the question whether the concession
agreements related to the motor carrier’s prices,
routes, or services, because that issue was not on appeal.” Majority Opinion at 33. And “[b]ecause Su did
not make a deliberate decision to adopt a rule regarding the ABC test—and indeed expressly disclaimed
doing so—we are neither bound nor meaningfully assisted for analytical purposes by its statements made
without reasoned consideration.” Majority Opinion at
35 (quotation marks and citation omitted). As for
Schwann and Bedoya, the majority claims that they
are “contrary to our precedent,” citing Dilts. Majority
Opinion at 36. But Dilts did not address an “all or
nothing rule” like California’s ABC test, and even if
the majority is correct as to the cases’ precedential
value, the majority understates or ignores each case’s
persuasive value. I agree that it can “hardly be
doubted” that an “all or nothing” rule requiring motor
carriers to hire employees rather than independent
contractors relates to motor carriers’ services and is
thus preempted. No one—not even the majority—argues that AB-5 will not compel motor carriers to use
employees rather than independent contractors.
The majority’s holding undermines the balance of
state and federal power contemplated by the F4A and
in doing so, unnecessarily creates a circuit split.4 ABThe majority charges that I “would tip the balance of power
against the states and in favor of the federal government by holding that federal law preempts AB-5, a state law clearly within an
area of traditional state power, without citing any evidence that

4

47a
5 is preempted as applied to CTA’s members, a conclusion compelled by binding precedent from the Supreme Court and our circuit. That ends the inquiry.
But even were the question close (and it isn’t), we
would have no basis for reversing here, given the
standard of review and given that the majority does
not even try to suggest that the district court abused

Congress clearly and expressly intended to do so.” Majority Opinion at 38 n.14 (citing Miller, 976 F.3d at 1021). However, in Rowe,
the Supreme Court held that “state service-determining laws”
are “inconsistent with Congress’ major legislative effort to leave
such decisions, where federally unregulated, to the competitive
marketplace.” 552 U.S. at 373. The Court reiterated in Dan‘s City
that the “target at which [the F4A] aimed was a State’s direct
substitution of its own governmental commands for competitive
market forces in determining (to a significant degree) the services that motor carriers will provide.” 569 U.S. at 263. As already explained with the support of record evidence, AB-5 will
determine the services that motor carriers are able to provide to
their customers. Therefore, it is not my dissent, but rather AB-5
and the majority’s decision to uphold it that conflict with the balance of state and federal power mandated by the F4A. The majority attempts to distinguish this case from Rowe with the conclusory statement that the law at issue was “clearly the sort of
‘service-determining law’ that Congress intended to preempt,”
whereas “AB-5 does not mandate that motor carriers ... withhold
any service.” Majority Opinion at 38 n.14. The majority seems to
forget its own acknowledgment only two sentences prior that the
law at issue in Rowe also did not mandate that motor carriers
withhold any service, but instead “required, among other things,
that a driver delivering tobacco products verify the identity and
age of the recipient of the package, and obtain the recipient’s signature.” Majority Opinion at 38 n.14. In other words, the law at
issue in Rowe was a “service-determining law” preempted by the
F4A because it regulated “the essential details of a motor carrier’s system for picking up, sorting, and carrying goods,” 552
U.S. at 373—exactly the same as AB-5.

48a
its discretion in finding that the other injunction factors—irreparable harm,5 balance of the equities, and
the public interest6—favor the plaintiff.
The majority concludes that “[b]y failing to follow
our precedent regarding labor laws of general applicability, the district court committed a legal error to
which we cannot defer, even at the preliminary-injunction stage.” Majority Opinion at 39. But as I have
shown, none of the cases on which the majority relies
dealt with a law like AB-5, which affects motor carriers’ relationships with their workers and significantly
impacts their services. In the absence of directly applicable precedent, I do not see how the district court
could have abused its discretion after thoroughly analyzing our F4A precedent and applying the exact
standard the majority adopts to the facts of this case.7
“Plaintiffs have shown that irreparable harm is likely because
without significantly transforming their business operations to
treat independent-contractor drivers as employees for all specified purposes under California laws and regulations, they face
the risk of governmental enforcement actions, as well as criminal
and civil penalties.” Cal. Trucking, 433 F. Supp. 3d at 1169.

5

“The Court recognizes the Legislature’s public interest in protecting misclassified workers, which it attempted to further address with AB-5. That public interest, however, ‘must be balanced against the public interest represented in Congress’s decision to deregulate the motor carrier industry, and the Constitution’s declaration that federal law is to be supreme.’ American
Trucking Associations, 559 F.3d at 1059-60. Therefore, the public
interest tips sharply in Plaintiffs’ favor.” Cal. Trucking, 433 F.
Supp. 3d at 1171.

6

The district court and the majority agree as to the law governing this case. Like the majority, the district court described the
applicable legal standard as follows: “Congress did not intend to
preempt laws that implement California’s traditional labor protection powers, and which affect carriers’ rates, routes, or services in only tenuous ways. Still, where a state law significantly

7

49a

impacts a carrier’s prices, routes, or services, it is forbidden.” Cal.
Trucking, 433 F. Supp. 3d at 1163-64 (quotation marks and citations omitted). Cf. Majority Opinion at 22 (“[W]e have attempted
to draw a line between laws that are significantly related to
rates, routes, or services, even indirectly, and thus are
preempted, and those that have only a tenuous, remote, or peripheral connection to rates, routes, or services, and thus are not
preempted.” (quotation marks and citation omitted)). The district
court and the majority disagree only as to the application of that
law to the facts of this case. Whereas the majority believes that
“AB-5 is a generally applicable labor law that impacts [only] the
relationship between a motor carrier and its workforce, and does
not bind, compel, or otherwise freeze into place a particular price,
route, or service of a motor carrier at the level of its customers,”
Majority Opinion at 38-39, the district court reached the opposite
conclusion: “Plaintiffs have shown the ABC test is ... likely
preempted by the [F4A] because it compels a certain result—by
compelling a motor carrier to use employees for certain services.”
Cal. Trucking, 433 F. Supp. 3d at 1168 (quotation marks, citation, and alteration omitted). The district court elaborated that
unlike Mendonca, Dilts, and Su, the facts of this case show that
AB-5 will significantly impact not only motor carriers’ relationships to their workers, but also their prices, routes, or services:
[T]he present case concerns the test used to classify workers
for the purpose of determining whether all of California employment laws do or do not apply, rather than a small group
of those laws, such as the meal break regulations in Dilts.
Thus, the combined effect of all such laws has a significant
impact on motor carriers’ prices, routes, or services. Accordingly, Dilts and other similar cases are distinguishable because they focus on whether discrete wage-and-hour laws and
regulations had more than a tenuous impact on motor carriers’ prices, routes, or services, not whether the combined impact of applying all of California’s employment laws to independent owner-operators had more than a tenuous impact on
motor carries’ prices, routes, or services.
Id. at 1168-69.

50a
See Am. Trucking, 559 F.3d at 1052 (“As long as the
district court got the law right, [its preliminary injunction] will not be reversed simply because the appellate court would have arrived at a different result
if it had applied the law to the facts of the case.” (citation and alteration omitted)). The majority’s holding
that the district court abused its discretion is especially perplexing given the abundance of opinions by
our court and sister circuits holding or strongly suggesting that the F4A preempts “all or nothing” rules
like the AB-5, and given the majority’s own concession
that “our precedents do not rule out the possibility
that a generally applicable law could so significantly
impact the employment relationship between motor
carriers and their employees that it effectively binds
motor carriers to specific prices, routes, or services at
the consumer level,” Majority Opinion at 31.
Nonetheless, California will now be free to enforce
its preempted law. CTA’s members will now suffer irreparable injury. And the damage to the policies mandated by Congress will likely be profound. Thus, I respectfully dissent.

51a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
Case No. 3:18-cv-02458-BEN-BLM
CALIFORNIA TRUCKING ASSOCIATION,
et al.,
Plaintiffs,
v.
ATTORNEY GENERAL XAVIER BECERRA, et al.,
Defendants,
INTERNATIONAL BROTHERHOOD
OF TEAMSTERS,
Intervenor-Defendant.
ORDER GRANTING PRELIMINARY
INJUNCTION
Plaintiffs California Trucking Association,
Ravinder Singh, and Thomas Odom move for a preliminary injunction. Having carefully considered the
parties’ arguments, the motion is GRANTED.
I.

BACKGROUND

The following facts are taken from the Second
Amended Complaint and the declarations filed related
to Plaintiffs’ preliminary injunction motion.1 Plaintiff
Plaintiffs and Intervenor filed various declarations and numerous evidentiary objections, Docs. 56, 74. Notably, “a preliminary
injunction is customarily granted on the basis of procedures that
are less formal and evidence that is less complete than in a trial
on the merits.” Univ. of Texas v. Camenisch, 451 U.S. 390, 395

1

52a
California Trucking Association (“CTA”) is an association of licensed motor-carrier companies that manage, coordinate, and schedule the movement of property throughout California. Many of CTA’s motor-carrier members contract with owner-operators as independent contractors. Plaintiff Ravinder Singh is one
example. He owns and operates his own truck, and he
contracts as an independent contractor with different
motor carriers and brokers in California to perform
various trucking services. Plaintiff Thomas Odom also
owns and operates his own truck. He contracts as an
independent contractor with a national motor carrier
to haul property within California and between California and Texas.
For decades, the trucking industry has used an
owner-operator model to provide the transportation of
property in interstate commerce. That model generally involves a licensed motor carrier contracting with
an independent contractor driver to transport the carrier-customer’s property. The volume of trucking services needed within different industries can vary over
time based on numerous factors. For example, in the
agriculture industry, demand for trucking services
varies depending on the time of year, the price at
which the produce can be sold, the available markets,
the length of the growing season, and the size of the
crop, which itself varies based on temperature, rainfall, and other factors. Motor carriers offer many types
(1981). Thus, “the Federal Rules of Evidence do not strictly apply
to preliminary injunction proceedings.” Disney Entertainment,
Inc. v. VidAngel, Inc., 224 F. Supp. 3d 957, 966 (C.D. Cal. 2016),
aff’d. 869 F.3d 848 (9th Cir. 2017). Moreover, evidentiary issues
at this stage properly go to weight rather than admissibility, see
id. at 966, and the Court can easily assess the weight of the evidence without the parties’ arguments.

53a
of trucking services, including conventional trucking,
the transport of hazardous materials, refrigerated
transportation, flatbed conveyance, intermodal container transport, long-haul shipping, movement of
oversized loads, and more. Motor carriers meet the
fluctuating demand for highly varied services by relying upon independent-contractor drivers.
Individual owner-operators use a business model
common in both California and across the country.
They typically buy or lease their own trucks, a significant personal investment considering that the record
reflects a single truck can cost in excess of $100,000.
See, e.g., Doc. 54-2 at 5. Then, the owner-operators
typically work for themselves for some time to build
up their experience and reputation in the industry.
Once the owner-operator is ready to expand their
business, they contract for or bid on jobs that require
more than one truck, at which time, the owner-operator will subcontract with one or more other owner-operators to complete the job. Many individual owneroperators have invested in specialized equipment and
have obtained the skills to operate that equipment efficiently.
Whether certain laws and regulations in the California Labor Code apply to truck drivers, generally,
depends on their status as employees or independent
contractors. S.G. Borello & Sons, Inc. v. Dep’t of Indus.
Relations, 48 Cal. 3d 341, 350 (1989). For nearly three
decades, California courts have used a test, based on
the Borello decision, to determine whether workers
are correctly classified as employees or independent
contractors. See id. at 341. The Borello standard considers the “right to control work,” as well as many
other factors, including (a) whether the worker is engaged in a distinct occupation or business, (b) the

54a
amount of supervision required, (c) the skill required,
(d) whether the worker supplies the tools required, (e)
the length of time for which services are to be performed, (f) the method of payment, (g) whether the
work is part of the regular business of the principal,
and (h) whether the parties believe they are creating
an employer-employee relationship. Id. at 355. In
April of 2018, the California Supreme Court replaced
the Borello classification test for Wage Order No. 9
with the “ABC test.” Dynamex Operations West v. Superior Court, 4 Cal. 5th 903 (2018).
California’s Assembly-Bill 5 (“AB-5”) codified the
ABC test adopted in Dynamex and expanded its reach
to contexts beyond Wage Order No. 9, including workers’ compensation, unemployment insurance, and disability insurance. As applied to the motor carrier context, AB-5 provides a mandatory test for determining
whether a person driving or hauling freight for another contracting person or entity is an independent
contractor or an employee for all purposes under the
California Labor Code, the Industrial Welfare Commission wage orders, and the Unemployment Insurance Code. See Cal. Labor Code § 2750.3(a)(1). Under
AB-5’s ABC test, an owner-operator is presumed to be
an employee unless the motor carrier establishes each
of three requirements:
(A) The person is free from the control and direction of the hiring entity in connection with
the performance of the work, both under the
contract for the performance of the work and
in fact.
(B) The person performs work that is outside
the usual course of the hiring entity’s business.

55a
(C) The person is customarily engaged in an
independently established trade, occupation,
or business of the same nature as that involved in the work performed.
AB-5 also includes certain exceptions that were not
part of the Dynamex test, including an exception for
“business-to-business contracting relationship[s].”2
Id. at § 2750.3(a)(1)(e). The statute additionally provides that “[i]f a court of law rules that the three-part
[ABC] test… cannot be applied to a particular context”
due, for example, to federal preemption, “then the determination of employee or independent contractor
status in that context shall instead be governed by
[Borello].” Id. at § 2750.3(a)(1)(3).
On September 18, 2019, California Governor
Gavin Newsom signed AB-5 into law. AB-5 went into
effect on January 1, 2020. On December 2, 2019,
Plaintiffs filed their motion for a preliminary injunction with a hearing set for December 30, 2019. When
the Court continued the hearing to January 13, 2020,
Plaintiffs filed a motion for a temporary restraining
order on December 24, 2019. After considering the
parties’ arguments in their briefing, the Court granted
the temporary restraining order and enjoined Defendants from enforcing AB-5 as to any motor carrier operating in California until this Court’s resolution of Plaintiffs’ motion for a preliminary injunction. On January
13, 2020, the Court heard argument on Plaintiffs’ motion for a preliminary injunction. At the hearing, the
Court extended the temporary restraining order until
The statute identifies numerous exempted occupations to which
Borello, rather than the ABC test, will continue to apply. The
exempted occupations include doctors, lawyers, accountants, investment advisers, commercial fishermen, and others. See Cal.
Labor Code § 2750.3(b)(1)-(6). Motor carriers are not exempted.

2

56a
the date of the Court’s decision on Plaintiffs’ motion.
For the following reasons, the Court finds a preliminary
injunction is warranted.
II.

DISCUSSION

In support of their motion for preliminary injunction, Plaintiffs argue they are highly likely to show
AB-5 is preempted by the FAAAA and by the Dormant
Commerce Clause. According to Plaintiffs, unless the
Court enjoins Defendants from enforcing AB-5, its
members will suffer irreparable injury, including constitutional injuries, as well as enforcement actions imposing civil and criminal penalties. The State Defendants oppose, contending that Plaintiffs are unlikely to
succeed on the merits of their claims, that Plaintiffs’
delay in seeking injunctive relief undermines their
claim of irreparable injury, and that the public interest weighs in the State Defendants’ favor. IntervenorDefendant International Brotherhood of Teamsters
opposes on the same grounds as the State Defendants
but with the additional contention that Plaintiffs CTA
and Odom lack standing.3 Accordingly, as a threshold
matter, the Court first addresses Plaintiffs’ standing
and then the four elements required for a preliminary
injunction.
A. Article III Standing
“One of the essential elements of a legal case or
controversy is that the plaintiff have standing to sue.”
Trump v. Hawaii, 138 S.Ct. 2392, 2416 (2018). To
demonstrate Article III standing, a plaintiff must
show a “concrete and particularized” injury that is
“fairly traceable” to the defendant’s conduct and “that
Throughout this Order, the Court refers to the State Defendants and Intervenor-Defendant collectively as “Defendants.”

3

57a
is likely to be redressed by a favorable decision.”
Spokeo, Inc. v. Robins, 136 S.Ct. 1540, 1547-48 (2016).
“At least one plaintiff must have standing to seek each
form of relief requested, and that party bears the burden of establishing the elements of standing with the
manner and degree of evidence required at the successive stages of the litigation.” City & Cty. of San Francisco v. U.S. Dept. of Homeland Security, 944 F.3d 773,
786-87 (9th Cir. 2019) (internal quotation marks and
citations omitted). “At this very preliminary stage,
plaintiffs may rely on the allegations in their Complaint and whatever other evidence they submitted in
support of their preliminary-injunction motion to
meet their burden.” Id. at 787.
Intervenor attacks Plaintiffs’ standing on three
grounds, none of which have merit. First, Intervenor
argues that Plaintiffs lack standing because they do
not establish the ABC test will be used against them,
and thus, they do not establish the requisite actual or
imminent injury. For the same reasons discussed in
the Court’s Order granting Plaintiffs’ temporary restraining order, the Court disagrees. Plaintiffs have
satisfied the imminent injury requirement where, assuming their interpretation of AB-5 is correct, they
face the choice of either implementing significant,
costly compliance measures or risking criminal and
civil prosecution. See, e.g., Cal. Unemp. Ins. Code §
2117; Cal. Labor Code § 1199.5; Cal. Labor Code §§
226.6 and 226.8. Indeed, as recently as December 23,
2019, Defendants expressly declined to withhold enforcement of AB-5, even for a short time. That is sufficient for standing in a pre-enforcement challenge.
See, e.g., Susan B. Anthony List v. Driehaus, 573 U.S.
149, 168 (2014) (finding petitioners in pre-enforcement challenge demonstrated an injury-in-fact sufficient for Article III standing); see also id. at 158

58a
(“When an individual is subject to [the threatened enforcement of a law], an actual arrest, prosecution, or
other enforcement action is not a prerequisite to challenging the law.”).
Next, Intervenor contends that to show a concrete
injury, CTA must definitively show that some of its
members’ drivers would be classified as independent
contractors under the pre-AB-5 Borello classification
test. The Court is not persuaded that such proof is required at this very preliminary stage. In other words,
Plaintiffs need not show with complete certainty that
a CTA member would be harmed by the ABC test but
not by the Borello test; rather, plaintiffs “need only establish a risk or threat of injury to satisfy the actual
injury requirement.” City & Cty. of San Francisco, 944
F.3d at 787 (quoting Harris v. Bd. of Supervisors, 366
F.3d 754, 762 (9th Cir. 2004) (emphasis in original)).
CTA has done so here by claiming that many of its
members contract with independent-contractor drivers, who can no longer be classified as independent
contractors under the ABC test.
Regardless, even if CTA were held to the higher
standard proposed by Intervenor, CTA would satisfy
it. In response to Intervenor’s challenge, CTA offers
evidence showing that some of its members’ drivers
have been classified as independent contractors under
Borello or tests like Borello.4 Furthermore, Intervenor’s apparent position—that CTA members’ drivers
Plaintiffs’ request for judicial notice of Exhibits A-C [Doc. 73-3]
is GRANTED. “[A] court may take judicial notice of its own records in other cases, as well as the records of an inferior court in
other cases.” United States v. Wilson, 631 F.2d 118, 119 (9th Cir.
1980). The Court is not persuaded by Intervenor’s arguments opposing judicial notice, particularly where Plaintiffs offered their
evidence in response to Intervenor’s attack on their standing.

4

59a
will always be classified as employees under Borello
and thus, the new ABC test’s classification of them as
employees cannot harm them—is undermined by the
Ninth Circuit’s own observations about the two tests.
See, e.g., California Trucking Ass’n v. Su, 903 F.3d
953, 964 (9th Cir. 2018) (distinguishing Borello test as
“contrary” to ABC tests adopted in other states because under Borello, “[w]hether the work fits within
the usual course of an employer’s business is one factor among many—and not even the most important
one”) (“[T]he Borello standard does not compel the use
of employees or independent contractors.”). Accordingly, the Court finds that, at this very preliminary
stage, Plaintiffs have carried their burden to show
some of its members face the risk of having their drivers, who would be classified as independent contractors under Borello, instead be misclassified as employees under the ABC test.
Finally, Intervenor argues that CTA lacks “associational standing” because it has not identified any
single CTA member who will be injured by use of the
ABC test to determine whether drivers are employees.
In support, Intervenor cites Summers v. Earth Island
Inst., which held that an association has standing to
represent its members’ interests when “at least one
identified member had suffered or would suffer
harm.” 555 U.S. 488, 498 (2009). Intervenor further
reasons that, if Defendants were enjoined from enforcing the ABC test, employment status would be decided
based on the prior Borello test. Thus, again, Interve-

Nonetheless, Intervenor’s request for judicial notice, [Doc. 78], is
GRANTED for the same reasons as Plaintiffs’ request, but Intervenor’s cases do not compel a different conclusion as to Plaintiffs’
standing.

60a
nor contends that because CTA does not submit evidence that any of its members’ drivers are not employees under Borello, there is no evidence that the ABC
test injures a single CTA member.
The Court disagrees. “[A]n association has standing to bring suit on behalf of its members when: (a) its
members would otherwise have standing to sue in
their own right; (b) the interests it seeks to protect are
germane to the organization’s purpose; and (c) neither
the claim asserted nor the relief requested requires
the participation of individual members in the lawsuit.” Hunt v. Washington State Apple Advertising
Com’n, 432 U.S. 333, 343 (1977). Associational standing is present here where CTA claims that many of its
members use independent-contractor drivers to provide interstate trucking services to customers in California and other states, and that, as a result, those
members have a concrete interest in knowing whether
they must fundamentally change their longstanding
business structure by shifting to using only employee
drivers when operating within California.
Moreover, Summers is distinguishable from
CTA’s case. Summers involved a dispute about a timber project that had settled, and “no other project
[was] before the court in which respondents were
[even] threatened with injury in fact.” Summers, 555
U.S. at 491-92. Unlike Summers, the dispute here facing CTA’s members is still very much alive because
without preliminary injunctive relief, AB-5 will apply
to them and likely be enforced against CTA’s members
to the full extent of the law. The Ninth Circuit, too,
has expressed doubt that “Summers, an environmental case brought under the National Environmental
Policy Act, stands for the proposition that an injured

61a
member of an organization must always be specifically identified in order to establish Article III standing for the organization.” Nat’l Council of La Raza v.
Cegavske, 800 F.3d 1032, 1041 (9th Cir. 2015). The
Ninth Circuit explained:
where it is relatively clear, rather than merely
speculative, that one or more members have
been or will be adversely affected by a defendant’s action, and where the defendant need
not know the identity of a particular member
to understand and respond to an organization’s claim of injury, we see no purpose to be
served by requiring an organization to identify by name the member or members injured.
Id. Such is the case here. Intervenor offers no reason
why it cannot address the predominately legal claims
brought by CTA without the identification of a particular CTA member. Thus, for the previous reasons, the
Court is satisfied that Plaintiffs have standing at this
very preliminary stage.5
B. Preliminary Injunction
“Generally, the purpose of a preliminary injunction is to preserve the status quo and the rights of the
parties until a final judgment issues in the cause.”
City & Cty. of San Francisco, 944 F.3d at 789. Plaintiffs can obtain a preliminary injunction where they

At the January 13, 2020 oral argument, Plaintiffs’ counsel clarified that they seek relief only as to their motor carrier members.
Thus, the Court need not consider Intervenor’s challenge to
owner-operator Odom’s standing. Odom’s standing bears no relevance on whether the Court can enjoin enforcement of AB-5’s
ABC test as to motor carriers because Odom is not a motor carrier.

5

62a
establish four factors: “(1) that [they are] likely to succeed on the merits, (2) that [they are] likely to suffer
irreparable harm in the absence of preliminary relief,
(3) that the balance of equities tips in [their] favor,
and (4) that an injunction is in the public interest.” Id.
at 788-89 (quoting Winter v. NRDC, 555 U.S. 7, 22
(2008)). In the alternative, however, “‘serious questions going to the merits’ and a balance of hardship
that tips sharply towards the plaintiff[s] can support
issuance of a preliminary injunction, so long as the
plaintiff[s] also show[] that there is a likelihood of irreparable injury and that the injunction is in the public interest.” Id. at 789 (quoting All. for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1135 (9th Cir. 2011)).
1. Likelihood of Success on the Merits
To prevail on their motion for a preliminary injunction, Plaintiffs must establish, at a minimum,
that there are “serious questions” on the merits of at
least one of their challenges to AB-5’s ABC test. See
Cottrell, 632 F.3d at 1135. For the following reasons,
Plaintiffs have done so with their FAAAA preemption
challenge.6
Within the FAAAA, Congress included an express
preemption provision, which provides that states
“may not enact or enforce a law, regulation, or other
provision having the force and effect of law related to
a price, route, or service of any motor carrier… with
respect to the transportation of property.” 49 U.S.C. §
14501(c)(1). The preemption provision is a broad one.
“The phrase ‘related to’ embraces state laws ‘having a
For purposes of preliminary injunctive relief, Plaintiffs have
satisfied this prong based on the FAAAA preemption ground.
Thus, the Court declines at this time to analyze Plaintiffs’ alternative Dormant Commerce Clause challenge to AB-5.

6

63a
connection with or reference to’ carrier ‘rates, routes,
or services,’ whether directly or indirectly.” Cal.
Trucking Ass’n v. Su, 903 F.3d 953, 960 (9th Cir.
2018). As the Ninth Circuit has explained, “[t]here can
be no doubt that when Congress adopted the FAAA
Act, it intended to broadly preempt state laws that
were ‘related to a price, route or service’ of a motor
carrier.” Am. Trucking Ass’ns, Inc. v. City of Los Angeles, 559 F.3d 1046, 1053 (9th Cir. 2009) (emphasis
added).
Similarly, the First Circuit has explained that
Congress had “dual objectives” for adopting a “broad
reach” by copying the language of the Airline Deregulation Act of 1978 into the FAAAA’s preemption
clause: (1) “to ensure that the States would not undo
federal deregulation with regulation of their own” and
(2) “to avoid a patchwork of state service-determining
laws, rules, and regulations.” Schwann v. FedEx
Ground Pkg. System, Inc., 813 F.3d 429, 436 (1st Cir.
2016) (internal quotation marks and citations omitted). To be sure, the breadth of the FAAAA’s preemption clause “does not mean the sky is the limit”: “Congress did not intend to preempt laws that implement
California’s traditional labor protection powers, and
which affect carriers’ rates, routes, or services in only
tenuous ways.” Su, 903 F.3d at 960-61 (emphasis
added) (citing Dilts v. Penske Logistics, LLC, 769 F.3d
637, 647-50 (9th Cir. 2014) (meal and rest break laws)
and Californians for Safe & Competitive Dump Truck
Transp. v. Mendonca, 152 F.3d 1184, 1189 (9th Cir.
1998) (prevailing wage law)); see also id. at 960 (“[T]he
FAAAA does not preempt state laws that affect a carrier’s prices, routes, or services in only a tenuous, remote or peripheral manner with no significant impact
on Congress’s deregulatory objectives.”) (internal quo-

64a
tation marks omitted). Still, where a state law “significantly impacts a carrier’s prices, routes, or services,”
it is “forbidden.” Id.
Whether the FAAAA preempts AB-5 and its ABC
test is a matter of first impression in this circuit, but
Ninth Circuit jurisprudence touching on the issue
strongly suggests preemption. For example, in American Trucking Associations, Inc. v. City of Los Angeles,
the Ninth Circuit reversed the district court’s denial
of American Trucking Association’s (“ATA”) motion
for a preliminary injunction and even took the unusual step of remanding with instructions to the district court to issue a preliminary injunction. 559 F.3d
1046, 1060-61 (9th Cir. 2009). ATA contended that the
FAAAA preempted various provisions in the Port’s
mandatory concession agreements for drayage trucking services at ports. As to the provision requiring motor carriers to use employee drivers rather than independent-contractor drivers, the Ninth Circuit concluded it could “hardly be doubted” that the FAAAA
preempted the provision and that, unless the Port
could demonstrate an exception to the FAAAA’s
preemption provision applied, the motor carriers
would likely prevail on their challenge.7 Id. at 1053.
The Ninth Circuit went on to conclude that the concession agreement’s provision requiring the “phasing
out” of thousands of independent contractors “is one
likely to be shown to be preempted.” Id. at 1056.
California Trucking Association v. Su offers additional guidance. 903 F.3d 953 (9th Cir. 2018). There,
7 Here, Defendants do not argue a similar exception to the
FAAAA’s preemption provision applies to the ABC test; instead,
they contend the ABC test does not fall within the broad scope of
the FAAAA’s preemption provision.

65a
the Ninth Circuit considered whether the FAAAA
preempted the Borello multi-factor test for distinguishing between employees and independent contractors. In so doing, the Ninth Circuit noted the “obvious proposition” for which American Trucking stood:
“that an ‘all or nothing’ rule requiring services be performed by certain types of employee drivers…was
likely preempted [by the FAAAA].” Id. at 964. The
court then distinguished the Borello test as “wholly
different from [the provision at issue in] American
Trucking” because neither the Borello standard or
“the nature of the Borello standard compell[ed] the
use of employees to provide certain carriage services.”
Id. The Ninth Circuit distinguished the Borello test
from the ABC test adopted in other states, noting “the
application of which courts have then held to be
preempted.” Id. It did so by explaining that, “[l]ike
American Trucking, the ‘ABC’ test may effectively
compel a motor carrier to use employees for certain
services because, under the ‘ABC’ test, a worker
providing a service within an employer’s usual course
of business will never be considered an independent
contractor.” Id. (emphasis added). The court further
explained that, under Borello and in contrast to the
ABC test, “whether the work fits within the usual
course of an employer’s business is one factor among
many—and not even the most important one.” Id. (emphasis added).
Although not binding on this Court, the First Circuit’s recent analysis of an ABC test identical to California’s is persuasive. In Schwann v. FedEx Ground
Package System, Inc., the First Circuit held the
FAAAA preempted Massachusetts’ ABC test’s Prong B

66a
as applied to FedEx.8 813 F.3d 429 (1st Cir. 2016). In
so holding, the First Circuit reasoned:
The regulatory interference posed by Plaintiffs’ application of Prong 2 is not peripheral.
The decision whether to provide a service directly, with one’s own employee, or to procure
the services of an independent contractor is a
significant decision in designing and running
a business.… Such an application of state law
poses a serious potential impediment to the
achievement of the FAAAA’s objectives because a court, rather than the market participant, would ultimately determine what services that company provides and how it
chooses to provide them.
Id. at 438.
Together, these cases show that the FAAAA likely
preempts “an all or nothing” state law like AB-5 that
categorically prevents motor carriers from exercising
their freedom to choose between using independent
In both statutes, Prong B is the Achilles heel. California’s
Prong B is identical to the preempted Massachusetts test because neither test permits an alternative method for using an
independent-contractor driver. Cf. Bedoya v. Am. Eagle Express
Inc., 914 F.3d 812, 824 (3d Cir. 2019) (finding New Jersey’s ABC
test not preempted by FAAAA because New Jersey test provided
an alternative method by which a motor carrier could still use
independent contractors via the additional clause: “or [performs
such service] outside of all the places of business of [the employer]”) (emphasis added) (distinguishing between Massachusetts’ ABC test by explaining “[t]he Massachusetts statute does
not include New Jersey’s alternative method for reaching independent contractor status—that is, by demonstrating that the
worker provides services outside of the putative employer’s
‘places of business’”).

8

67a
contractors or employees. See also Bedoya v. Am. Eagle Express Inc., 914 F.3d 812, 824 (3d Cir. 2019)
(holding New Jersey’s ABC test is not preempted by
the FAAAA because contrary to Massachusetts’ test,
it includes an “alternative method for reaching independent contractor status—that is, by demonstrating
that the worker provides services outside of the putative employer’s ‘places of business,’” and “[n]o part of
the New Jersey test categorically prevents carriers
from using independent contractors.”). Yet, that is
precisely the case here. Because contrary to Prong B,
independent-contractor drivers necessarily perform
work within “the usual course of the [motor carrier]
hiring entity’s business,” drivers who may own and
operate their own rigs will never be considered independent contractors under California law.9 Thus, it
follows that Prong B of the ABC test requires motor
carriers to artificially reclassify all independent-contractor drivers as employee-drivers for all purposes
under the California Labor Code, the Industrial Welfare Commission wage orders, and the Unemployment
Insurance Code. See Cal. Labor Code § 2750.3(a)(1).
Indeed, the Ninth Circuit has already acknowledged
the likelihood of such a test being preempted by the
During the January 13, 2020 hearing, the Court repeatedly invited Defendants to explain how the ABC test was not an “all or
nothing” test. Specifically, the Court invited them to explain how
a motor carrier could contract with an independent owner-operator as an independent contractor, rather than as an employee,
under the ABC test. Neither the State nor Intervenor could provide an example. Instead, Defendants repeatedly asserted that a
broker company that did not perform trucking work could plausibly contract with an independent owner-operator. Brokers,
however, are not motor carriers. Accordingly, the Court observes
that the ABC test appears to be rigged in such a way that a motor
carrier cannot contract with independent contractor owner-operators without classifying them as employees.

9

68a
FAAAA. See Su, 903 F.3d at 964 (“Like American
Trucking, the ‘ABC’ test may effectively compel a motor carrier to use employees for certain services because, under the ‘ABC’ test, a worker providing a service within an employer’s usual course of business will
never be considered an independent contractor.”) (emphasis added).
Notably, the first and only court thus far to consider an FAAAA preemption challenge to AB-5
agreed. On January 8, 2020, the Los Angeles Superior
Court ruled that because the ABC test effectively prohibits motor carriers from using independent contractors to provide transportation services, the test has a
significant, impermissible effect on motor carriers’
“prices, routes, and services,” and thus, is preempted
by the FAAAA. The People of the State of California v.
Cal Cartage Transportation Express, LLC, Case No.
BC689320 (Los Angeles Superior Court January 8,
2020). Moreover, other district courts considering
FAAAA preemption challenges to California’s ABC
test, albeit under the pre-AB-5 Dynamex standard,
have applied similar logic and found the FAAAA
preempts Prong B. See, e.g., B&O Logistics, Inc. v.
Cho, 2019 WL 2879876, at *2-4 (C.D. Cal. April 15,
2019) (holding “Su, American Trucking, and Schwann
collectively establish that the FAAAA preempts a state
law that categorically requires a motor carrier to hire
employees—and not independent contractors—as
drivers. Here, the B prong of Dynamex’s ABC test
would require Plaintiff to reclassify Defendant as an
employee for the purposes of California’s wage orders
(which regulate, inter alia, minimum wages, maximum hours, and meal and rest breaks) because Defendant performs work that is in the usual course of
Plaintiff’s business (i.e., transporting property),” and
thus, “Plaintiff may seek a declaration that the B

69a
prong is preempted by the FAAAA”); Valadez v. CSX
Intermodal Terminals, Inc., 2019 WL 1975460, at *7-8
(N.D. Cal. March 15, 2019) (finding the FAAAA
preempts Prong B of the ABC test in Dynamex in part
because Prong B “effectively prevents motor carriers
from using independent contractors to perform services within their usual course of business,” and “Su
strongly indicates that a state law that would prevent
a motor carrier, like Defendant, from hiring independent contractors, rather than employees, to perform its
services would be preempted by the FAAAA”); Alvarez
v. XPO Logistics Cartage LLC, 2018 WL 6271965, at
*4-5 (C.D. Cal. Nov. 15, 2018) (relying in part on Su
and finding “the ABC test [as adopted in Dynamex] ‘relates’ to a motor carrier’s services in more than a ‘tenuous’ manner and is therefore preempted by the
FAAAA”); contra. Henry v. Central Freight Lines, Inc.,
2019 WL 2465330, at *5 (E.D. Cal. June 13, 2019)
(holding the FAAAA does not preempt the Dynamex
ABC test because “[t]he Dynamex ABC test is a general classification test that does not apply to motor carriers specifically and does not, by its terms, compel a
carrier to use an employee or an independent contractor.”); Western States Trucking Ass’n v. Schoorl, 377 F.
Supp. 3d 1056, 1070-71 (E.D. Cal. 2019) (relying on
Dilts to hold the FAAAA does not preempt Dynamex’s
ABC test); Phillips v. Roadrunner Intermodal Svcs.,
2016 WL 9185401, at *4-7 (C.D. Cal. Aug. 16, 2016)
(same).
Defendants offer a variety of arguments against
FAAAA preemption, but none are persuasive. For example, Defendants argue that Su and American
Trucking have no bearing on the ABC test. In so doing, however, Defendants attempt to characterize the
ABC test as “not requir[ing] that motor carriers—or

70a
anyone at all—transition from independent contractors to employees,” but “[i]nstead, [as] merely
provid[ing] the applicable test to assess whether a
worker is an independent contractor or an employee.”
Doc. 55 at 18. Defendants’ curious argument is that
“the ABC test itself imposes no legal obligations” because it only sets forth the test for determining
whether California’s labor laws apply to a worker.
Doc. 58 at 19. Although it is technically true that nothing in the ABC test prohibits motor carriers from contracting with independent contractors, that argument
merely poses a distinction without a difference. Put
another way, it is true that the statute does not expressly state that motor carriers cannot contract with
independent contractors, but Prong B permits motor
carriers to contract with independent contractors only
if they classify and treat those independent contractors as employees under California law.
The Court is similarly unpersuaded by Defendants’ contention that this Court lacks the ability to
consider whether AB-5 is preempted because, according to Defendants, the ABC test is merely a “test for
employment.” Doc. 58 at 19. According to Defendants,
“[t]he question for purposes of Plaintiffs’ FAAAA
preemption claim is… whether California’s employment laws that attach through the ABC test are
preempted,” rather than the ABC test, itself. Doc. 58
at 19 (emphasis added). To support their theory, Defendants rely upon the unpublished district court
opinion from which the parties appealed in Su. That
opinion, however, is both not binding and lacks persuasive value, particularly in light of the Ninth Circuit’s decision. See Su, 903 F.3d at 955 (distinguishing
Borello standard from Massachusetts ABC test by explaining “the ABC test may effectively compel a motor
carrier to use employees for certain services because,

71a
under the ABC test, a worker providing a service
within an employer’s usual course of business will
never be considered an independent contractor”). Contrary to Defendants’ position, the Court finds that “the
question is not whether the FAAAA preempts California’s wage orders [and other employment laws]; rather, it is whether [AB-5’s] ABC test—used to interpret the wage orders [and other employment laws]—
is preempted.” Alvarez v. XPO Logistics Cartage LLC,
2018 WL 6271965, at *5 (C.D. Cal. Nov. 15, 2018).
Next, Defendants argue that the FAAAA’s
preemption provision does not apply to the ABC test
because, according to Defendants, that test is a “law
of general applicability.” First, to the extent Defendants posit that a law of general applicability cannot be
preempted, they are incorrect. See Su, 903 F.3d at 966
(“This is not to say that the general applicability of a
law is, in and of itself, sufficient to show it is not
preempted.”) (citing Morales v. Trans World Airlines,
Inc., 504 U.S. 374, 386 (1992)). For the same reason,
the Court rejects Defendants’ reliance on People ex rel.
Harris v. Pac Anchor Transp., Inc., 59 Cal. 4th 772
(2014). Contrary to Defendants’ reading, Pac Anchor
does not foreclose FAAAA preemption of the ABC test.
As the Los Angeles Superior Court reasoned, “the better reading of Pac Anchor is not that laws of general
applicability are always immune from FAAAA
preemption. Rather, Pac Anchor left open the possibility that state laws prohibiting motor carriers from using independent owner-operator truck drivers might
be preempted—and even suggested that they would.”
Cal Cartrage, Case No. BC689320, at 11. Still, “[w]hile
general applicability is not dispositive,… it is a relevant consideration because it will likely influence
whether the effect on prices, routes, and services is
tenuous or significant.” Su, 903 F.3d at 966. The

72a
Ninth Circuit further explained that “[w]hat matters
is not solely that the law is generally applicable, but
where in the chain of a motor carrier’s business it is
acting to compel a certain result (e.g., a consumer or
workforce) and what result it is compelling (e.g., a certain wage, non-discrimination, a specific system of delivery, a specific person to perform the delivery).” Id.
Here, the Court is not persuaded that the ABC test is
a law of general applicability, but even if it were,
Plaintiffs have shown the ABC test is still likely
preempted by the FAAAA because it compels a certain
result—by “compel[ling] a motor carrier to use employees for certain services.” Id. at 964.
Defendants argue that Dilts v. Penske Logistics,
LLC, 769 F.3d 637, 649 (9th Cir. 2014) and Californians for Safe & Competitive Dump Truck Transp. v.
Mendonca, 152 F.3d 1184, 1189 (9th Cir. 1998) require the opposite conclusion. The preemption issues
in those cases, however, are significantly different
from the preemption issue raised here. Dilts and Mendonca concerned workers that had already been
properly classified as “employees.” In Dilts, the Ninth
Circuit held that specific California Labor Code protections for employees—meal and rest break laws—
were not preempted by the FAAAA because they were
“normal background rules for almost all employers doing business in the state of California” and did not,
either directly or indirectly “set prices, mandate or
prohibit certain routes, or tell motor carriers what services they may or may not provide, either directly or
indirectly.” Dilts, 769 F.3d at 647 (emphasis in original); see also Mendonca, 152 F.3d at 1187-89 (holding
FAAAA did not preempt California’s prevailing wage
law as applied to employees); Ridgeway et al. v.
Walmart, Inc., Case No. 17-15983 (9th Cir. Jan. 6,
2020) (holding FAAAA did not preempt California’s

73a
wage law requiring trucking company to pay minimum wages for driver rest time during which the company retains control over the driver because the law
did not set prices, mandate or prohibit certain routes,
or tell motor carriers what services they may provide).
In contrast, the present case concerns the test
used to classify workers for the purpose of determining whether all of California employment laws do or
do not apply, rather than a small group of those laws,
such as the meal break regulations in Dilts. Thus, the
combined effect of all such laws has a significant impact on motor carriers’ prices, routes, or services. Accordingly, Dilts and other similar cases are distinguishable because they focus on whether discrete
wage-and-hour laws and regulations had more than a
tenuous impact on motor carriers’ prices, routes, or
services, not whether the combined impact of applying
all of California’s employment laws to independent
owner-operators had more than a tenuous impact on
motor carriers’ prices, routes, or services. Moreover,
while Dilts reasoned that “applying California’s meal
and rest break laws to motor carriers would not contribute to an impermissible ‘patchwork’ of state-specific laws, defeating Congress’s deregulatory objectives,” the ABC test certainly would. Dilts, 769 F.3d at
647 (emphasis added). By effectively prohibiting motor carriers from contracting with independent-contractor drivers, AB-5 and its ABC test would transform California into its own patch in the very “patchwork” of state-specific laws Congress intended to prevent.10

10 The Court is aware of only one state, Massachusetts, that has
adopted an identical ABC test to that adopted in California’s AB-

74a
Finally, the Court is not persuaded by Intervenor’s brief, conclusory argument that “Plaintiffs fail to
establish that motor carriers cannot avail themselves
of AB-5’s business-to-business exception.” Doc. 58 at
25. To the extent Intervenor contends a motor carrier
could contract with an independent contractor under
AB-5’s business-to-business exception, Intervenor has
not shown how that is possible. Further, like the Los
Angeles Superior Court, this Court is skeptical that
motor carriers could, in fact, avail themselves of that
exception, particularly where the State Defendants,
who are tasked with enforcing AB-5, do not expressly
concede that the exception would apply.11 Accordingly,
the Court adopts the thorough reasoning of the Los
Angeles Superior Court’s January 8, 2020 order rejecting that argument. See Cal Cartrage, Case No.
BC689320, at 12-14 (rejecting plaintiff’s argument
that the “business-to-business” exception saves AB-5
from FAAAA preemption as applied to motor carriers).
The Court finds AB-5’s ABC test has more than a
“tenuous, remote, or peripheral” impact on motor carriers’ prices, routes, or services, particularly in light of
our Ninth Circuit jurisprudence casting serious doubt
on the type of “all or nothing rule” that AB-5 implements. Thus, for the previous reasons, Plaintiffs have

5. Notably, the First Circuit struck down the identical Massachusetts test as preempted by the FAAAA. See Schwann v. FedEx
Ground Package System, Inc., 813 F.3d 429 (1st Cir. 2016).
11 In fact, until the January 13, 2020 hearing, the State Defendants were silent on the business-to-business exception. During
the hearing, for the first time, the State Defendants expressed
that the exception could potentially apply to motor carriers, but
not that it definitively would.

75a
carried their burden at this preliminary stage of showing a likelihood of success on the merits as to their
FAAAA preemption challenge. In the alternative,
Plaintiffs have certainly raised “serious questions” going to the merits.
2. Irreparable Harm
As to the second element, the Court finds Plaintiffs have carried their burden to show the likelihood
of irreparable harm. As this Court previously concluded at the temporary restraining order stage,
Plaintiffs have shown that irreparable harm is likely
because without significantly transforming their business operations to treat independent-contractor drivers as employees for all specified purposes under California laws and regulations, they face the risk of governmental enforcement actions, as well as criminal
and civil penalties. See, e.g., Cal. Unemp. Ins. Code §
2117; Cal. Labor Code § 1198.5; Cal. Labor Code §§
226.6 and 226.8.12 Just as the Ninth Circuit noted in
American Trucking, “motor carriers are being put to a
kind of Hobson’s choice, not entirely unlike that which
faced the airlines in Morales v. Trans World Airlines,
Inc., 504 U.S. 374 (1992).” American Trucking, 559
F.3d at 1057 (9th Cir. 2009). In Morales, several
states’ attorneys general set out to regulate airline advertising and the compensation of passengers who
gave up their seats on overbooked flights. Morales,
504 U.S. at 379. Noting that the attorneys general
12 Defendants’ contention that any irreparable harm is undermined by Plaintiffs’ delay in moving for preliminary injunctive
relief does not require a different conclusion. It is true that Plaintiffs could have moved for a preliminary injunction within weeks,
rather than months, of AB-5’s adoption in September 2019, but
the Court is not persuaded that a two month delay in filing the
motion wholly undermines their showing of irreparable harm.

76a
“had made clear that they would seek to enforce the
challenged portions of the guidelines,” the Supreme
Court observed that injunctive relief is available
where there exists a threat of imminent proceedings
of a criminal or civil nature against parties who are
affected by an unconstitutional act. Id. at 380-81. The
Supreme Court further opined that the respondents
faced “a Hobson’s choice: continually violate the Texas
law and expose themselves to potentially huge liability; or violate the law once as a test case and suffer the
injury of obeying the law during the pendency of the
proceedings and any further review.” Id. at 381.
Similarly, in remanding to the district court to issue a preliminary injunction, the Ninth Circuit in
American Trucking found the motor carriers faced a
sort of Hobson’s choice because “a very real penalty
attaches to the motor carriers regardless of how they
proceed,” and “[t]hat is an imminent harm.” American
Trucking, 559 F.3d at 1058. Here, motor carriers
wishing to continue offering the same services to their
customers in California must do so using only employee drivers, meaning they must significantly restructure their business model, including by obtaining
trucks, hiring and training employee drivers, and establishing administrative infrastructure compliant
with AB-5. The only alternative available to motor
carriers is to violate the law and face criminal and
civil penalties. The Court is satisfied that Plaintiffs
have shown a likelihood of irreparable injury without
injunctive relief.
3. Balance of Equities; The Public Interest
If after the preliminary injunction stage, the
Court finds that AB-5 is preempted by the FAAAA,
motor carriers will have suffered harm due to AB-5’s
application to and enforcement against them. See

77a
American Trucking, 559 F.3d at 1059 (finding the balance of equities and public interest weighed in favor
of motor carriers, explaining, “[W]e have outlined the
hardships that motor carriers will suffer if, as is
likely, many provisions of the Concession agreements
are preempted and are, thus, being imposed in violation of the Constitution”). On the other side of the
scale, Defendants have legitimate concerns about preventing the misclassification of workers as independent contractors. Nonetheless, with or without the ABC
test, California still maintains numerous laws and
regulations designed to protect workers classified as
employees and to prevent misclassification, and the
pre-AB-5 Borello standard will continue as the applicable classification test. See Cal. Labor Code §
2750.3(a)(3) (mandating that should a court rule that
the ABC test cannot be applied to a particular context,
the pre-AB-5 Borello test will apply). Thus, on balance, the hardships faced by Plaintiffs significantly
outweigh those faced by Defendants.
Similarly, the Court finds that the public interest
supports preliminary injunctive relief. The Court recognizes the Legislature’s public interest in protecting
misclassified workers, which it attempted to further
address with AB-5. That public interest, however,
“must be balanced against the public interest represented in Congress’s decision to deregulate the motor
carrier industry, and the Constitution’s declaration
that federal law is to be supreme.” American Trucking, 559 F.3d at 1059-60. Therefore, the public interest tips sharply in Plaintiffs’ favor.
III. CONCLUSION
FAAAA preemption is broad but not so broad that
the sky is the limit: states retain the ability to execute
their police power with laws that do not significantly

78a
impact rates, routes, or services. Here, however, there
is little question that the State of California has encroached on Congress’ territory by eliminating motor
carriers’ choice to use independent contractor drivers,
a choice at the very heart of interstate trucking. In so
doing, California disregards Congress’ intent to deregulate interstate trucking, instead adopting a law that
produces the patchwork of state regulations Congress
sought to prevent. With AB-5, California runs off the
road and into the preemption ditch of the FAAAA. Accordingly, Plaintiffs’ motion for a preliminary injunction is GRANTED.
It is further ORDERED:
1. Defendant Xavier Becerra, in his official capacity as the Attorney General of the State of California,
Julia A. Su, in her official capacity as the Secretary of
the California Labor and Workforce Development
Agency, Andre Schoorl, in his official capacity as the
Acting Director of the Department of Industrial Relations of the State of California, Lilia Garcia Brower,
in her official capacity as the Labor Commissioner of
the State of California, and Patrick Henning, in his
official capacity as Director of the California Employment Development Department are temporarily enjoined from enforcing Assembly Bill 5’s ABC test, as
set out in Cal. Labor Code § 2750.3(a)(1), as to any
motor carrier operating in California, pending the entry of final judgment in this action.
2. Because there is no realistic likelihood of harm
to Defendants from granting a preliminary injunction
as to the enforcement of AB-5’s ABC test, a security
bond is not required.
IT IS SO ORDERED.
Date: January 16, 2020

_________________________

79a
HON. ROGER T. BENITEZ
United States District Judge

80a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Nos. 20-55106-20-55107
CALIFORNIA TRUCKING ASSOCIATION;
et al.,
Plaintiffs-Appellees,
v.
ROBERT ANDRES BONTA, Esquire, in his
official capacity as the Attorney General of the State
of California; et al.,
Defendants-Appellants,
and
INTERNATIONAL BROTHERHOOD OF
TEAMSTERS,
Intervenor-Defendant
D.C. No. 3:18-cv-02458-BEN-BLM
Southern District of California, San Diego
June 21, 2021
ORDER
Before: IKUTA and BENNETT, Circuit Judges, and
WOODLOCK1, District Judge.
Appellees’ Petition for Rehearing En Banc (Dkt.
104) is DENIED. Judge Ikuta voted to deny the petition for rehearing en banc, and Judge Woodlock so recommended. Judge Bennett voted to grant the petition
for rehearing en banc. The petition for rehearing en
The Honorable Douglas P. Woodlock, United States District
Judge for the District of Massachusetts, sitting by designation.

1

81a
banc was circulated to the judges of the court, and no
judge requested a vote for en banc consideration.
The petition for rehearing en banc is DENIED.

82a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Nos. 20-55106-20-55107
CALIFORNIA TRUCKING ASSOCIATION;
et al.,
Plaintiffs-Appellees,
v.
ROBERT ANDRES BONTA, Esquire, in his
official capacity as the Attorney General of the State
of California; et al.,
Defendants-Appellants,
and
INTERNATIONAL BROTHERHOOD OF
TEAMSTERS,
Intervenor-Defendant
D.C. No. 3:18-cv-02458-BEN-BLM
Southern District of California, San Diego
June 23, 2021
ORDER
Before: IKUTA and BENNETT, Circuit Judges, and
WOODLOCK1, District Judge.
Appellees’ Motion to Stay Issuance of the Mandate
is GRANTED. Pursuant to Fed. R. App. P. 41(d)(2),
the mandate in the case is stayed to permit appellees
to file a petition for writ of certiorari in the Supreme
Court. Should the Supreme Court grant certiorari, the
The Honorable Douglas P. Woodlock, United States District
Judge for the District of Massachusetts, sitting by designation.

1

83a
mandate will be stayed pending its disposition of the
case. Should the Supreme Court deny certiorari, the
mandate will issue immediately. The parties shall advise this court immediately upon the Supreme Court’s
decision.

